<html>
<title> - STATE AND LOCAL PERSPECTIVES ON DHS PREPAREDNESS GRANT PROGRAMS</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                         STATE AND LOCAL PERSPECTIVES ON DHS 
                             PREPAREDNESS GRANT PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                        EMERGENCY PREPAREDNESS,
                         RESPONSE, AND RECOVERY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 28, 2021

                               __________

                            Serial No. 117-9

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
 
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-738 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                              
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            John Katko, New York
James R. Langevin, Rhode Island      Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     Clay Higgins, Louisiana
J. Luis Correa, California           Michael Guest, Mississippi
Elissa Slotkin, Michigan             Dan Bishop, North Carolina
Emanuel Cleaver, Missouri            Jefferson Van Drew, New Jersey
Al Green, Texas                      Ralph Norman, South Carolina
Yvette D. Clarke, New York           Mariannette Miller-Meeks, Iowa
Eric Swalwell, California            Diana Harshbarger, Tennessee
Dina Titus, Nevada                   Andrew S. Clyde, Georgia
Bonnie Watson Coleman, New Jersey    Carlos A. Gimenez, Florida
Kathleen M. Rice, New York           Jake LaTurner, Kansas
Val Butler Demings, Florida          Peter Meijer, Michigan
Nanette Diaz Barragan, California    Kat Cammack, Florida
Josh Gottheimer, New Jersey          August Pfluger, Texas
Elaine G. Luria, Virginia            Andrew R. Garbarino, New York
Tom Malinowski, New Jersey
Ritchie Torres, New York
                       Hope Goins, Staff Director
                 Daniel Kroese, Minority Staff Director
                          Natalie Nixon, Clerk
                          
                                 ------                                

     SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND RECOVERY

                Val Butler Demings, Florida, Chairwoman
Sheila Jackson Lee, Texas            Kat Cammack, Florida, Ranking 
Donald M. Payne, Jr., New Jersey         Member
Al Green, Texas                      Clay Higgins, Louisiana
Bonnie Watson Coleman, New Jersey    Mariannette Miller-Meeks, Iowa
Bennie G. Thompson, Mississippi (ex  Andrew R. Garbarino, New York
    officio)                         John Katko, New York (ex officio)
              Lauren McClain, Subcommittee Staff Director
          Diana Bergwin, Minority Subcommittee Staff Director
                  Kenyatta Collins, Subcommittee Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Val Butler Demings, a Representative in Congress 
  From the State of Florida, and Chairwoman, Subcommittee on 
  Emergency Preparedness, Response, and Recovery:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Kat Cammack, a Representative in Congress From the 
  State of Florida, and Ranking Member, Subcommittee on Emergency 
  Preparedness, Response, and Recovery:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8

                               Witnesses

Hon. David Y. Ige, Governor, State of Hawaii:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Mr. Jared M. Maples, Director, Office of Homeland Security and 
  Preparedness, State of New Jersey:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Mr. Orlando Rolon, Chief of Police, Orlando Police Department:
  Oral Statement.................................................    22
  Prepared Statement.............................................    23
Mr. Robert V. Altman, Battalion Chief, Ocala Fire Rescue:
  Oral Statement.................................................    28
  Prepared Statement.............................................    30

 
    STATE AND LOCAL PERSPECTIVES ON DHS PREPAREDNESS GRANT PROGRAMS

                              ----------                              


                       Wednesday, April 28, 2021

             U.S. House of Representatives,
                    Committee on Homeland Security,
                   Subcommittee on Emergency Preparedness, 
                                    Response, and Recovery,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 12:07 p.m., 
via Webex, Hon. Val Butler Demings [Chairwoman of the 
subcommittee] presiding.
    Present: Representatives Demings, Jackson Lee, Payne, 
Watson Coleman, Cammack, Higgins, and Miller-Meeks.
    Also present: Representative Thompson.
    Chairwoman Demings. The Subcommittee on Emergency 
Preparedness, Response, and Recovery will come to order. The 
subcommittee is meeting today to receive testimony on State and 
local perspectives on DHS preparedness grant programs.
    Without objection, the Chair is authorized to declare the 
subcommittee in recess at any point.
    Let me officially say good afternoon to all of you. I would 
like to start by recognizing that this is my first Emergency 
Preparedness, Response, and Recovery Subcommittee hearing for 
the 117th Congress and my first hearing as Chair for the 
subcommittee.
    I am pleased to be joined by my colleague and fellow 
Floridian, Ranking Member Kate Cammack. We both hail from a 
State that has experienced many natural disasters. We can 
attest to the importance of emergency preparedness and use our 
experiences to conduct meaningful oversight of the Department 
of Homeland Security.
    We are here today to discuss the Department of Homeland 
Security's preparedness grant programs. These grant programs 
were created following one of the Nation's darkest moments, the 
September 11 terrorist attacks. We all remember that tragic day 
that took the lives of so many. I was assigned to the Orlando 
International Airport as a police commander in charge of the 
police division of the Orlando Police Department at that time. 
We learned many lessons that day, and the months and years to 
follow, about our readiness to respond to all threats.
    Through the Homeland Security Grant Programs, the 
Department's premier grant suite, DHS has made important 
investments to elevate the Nation's homeland security posture. 
These programs provide Federal assistance to fill gaps related 
to State, local, Tribal, and territorial governments' ability 
to effectively prepare for, respond to, recover from, and 
mitigate terrorist attacks.
    This is especially so for the Urban Area Security 
Initiative, the UASI Program and the State Homeland Security 
Grant Program, programs States rely on to build and maintain 
critical infrastructure and capabilities to keep our 
communities, our States, and our Nation safe. UASI funding is 
particularly critical to the Congressional district I 
represent, Florida 10. with central Florida being home to 
millions of domestic and international tourist destinations, 
including world renowned theme parks and attractions, it is 
essential that our first responders have the training, 
equipment, and other resources needed to perform their job 
during the most challenging times.
    Presently, Orlando's strong security posture is due in part 
to UASI funding that has helped to provide first responders 
with the tools and training they need to fulfill their primary 
mission, to keep our residents and visitors to our region safe.
    Having served as a law enforcement officer for almost 3 
decades, I understand the tough job of our first responders, 
police and fire and others, and believe in the importance of 
continued robust Federal support for grant programs that assist 
them in their work.
    President Trump consistently proposed significant cuts to 
the DHS preparedness grant programs that if enacted would have 
resulted in the tremendous loss of important homeland security 
capabilities that this country has invested in for years. 
Thankfully, Congress worked to ensure that cuts to these 
programs did not take place, but rather enacted increases in 
these programs.
    I look forward to working with the Biden administration to 
ensure that DHS preparedness grant programs continue to 
maintain robust funding, enabling us to meet the moment and 
boldly respond to any threat facing our Nation. In the nearly 
20 years since the September 11 terrorist attack, the threats 
against our Nation are ever-present, but we now see additional 
threats that were not as prevalent when the preparedness grant 
program was first established. Rather than foreign radical 
extremism being the predominant threat, it is now domestic 
terrorism, a fact evidenced by the January 6 insurrection at 
the U.S. Capitol.
    Unfortunately, this rise in domestic terrorism has also put 
non-profit organizations at risk, prompting them to struggle to 
secure their facilities with extremely tight budgets, and 
underscoring the need for them to have access to DHS funding.
    I would like to commend Chairman Thompson on the critical 
work he has done to help secure nonprofit organizations from 
terrorist attacks through the Securing American Non-profit 
Organizations Against Terrorist Act, which is now a law.
    While the evolution of the threat landscape requires DHS 
preparedness grant programs to evolve with it, it is important 
that stakeholder perspectives are considered and incorporated 
into changes to the grant program, including changes DHS made 
in the fiscal year 2020 and fiscal year 2021 budgets.
    I am pleased that the Department has the interest in 
ensuring preparedness dollars are spent how and where they are 
needed most and that Secretary Mayorkas has acknowledged the 
need to assess how these grant programs can be improved.
    While I look forward to working with the Biden 
administration to improve the grant programs, it is also the 
role of this subcommittee through its oversight function to 
hold them accountable. I am pleased that we have a simple--this 
expert panel of stakeholders to assist us in that effort.
    I look forward to your testimony today about how grant 
programs are used to strengthen your communities, the effect of 
the recent changes to the programs in fiscal year 2020 and 
2021, and the future of the grant programs.
    [The statement of Chairwoman Demings follows:]
               Statement of Chairwoman Val Butler Demings
                             April 28, 2021
    We are here today to discuss the Department of Homeland Security's 
preparedness grant programs. These grant programs were created 
following one of the Nation's darkest moments, the September 11 
terrorist attacks.
    Through the Homeland Security Grant Program, the Department's 
premier grants suite, DHS has made important investments to elevate the 
Nation's homeland security posture. These programs provide Federal 
assistance to fill gaps related to State, local, Tribal, and 
territorial governments' ability to effectively prepare for, respond 
to, recover from, and mitigate against terrorist attacks. This is 
especially so with the Urban Area Security Initiative (UASI) Program 
and the State Homeland Security Grant Program, the DHS programs States 
rely on to build and maintain critical capabilities used to make and 
keep this country safe.
    UASI funding is particularly critical to the Congressional district 
I represent, Florida's 10th. With Orlando being home to many 
international tourist destinations, including world-renown theme parks 
and attractions, it is essential that our first responders be 
adequately equipped. Presently, Orlando's security strong posture is 
due in large part to UASI funding that has helped to provide first 
responders with the tools and training they need to do their jobs 
safely and effectively.
    Having served as a law enforcement officer for 27 years, I 
understand the tough job of first responders, and believe in the 
importance of continued, robust Federal support for grant programs that 
assist them in their work. President Trump consistently proposed 
significant cuts to the DHS preparedness grant programs that, if 
enacted, would have resulted in the tremendous loss of important 
homeland security capabilities that this country has invested in for 
years. Thankfully, Congress worked to ensure that cuts to these 
programs did not take place, but rather enacted increases to these 
programs.
    I look forward to working with the Biden administration to ensure 
that DHS preparedness grant programs continue to maintain robust 
funding and are responsive to all threats facing this Nation.
    In the nearly 20 years since the September 11 terrorist attacks, 
the threat environment in this country has evolved, and the risks we 
now face are different from when the preparedness grant programs were 
first established. Rather than foreign radical extremism being the 
predominant threat, it is now domestic terrorism--a fact evidenced by 
the January 6 insurrection at the United States Capitol.
    Unfortunately, this rise in domestic terrorism has also put 
nonprofit organizations at great risk, prompting them to struggle to 
secure their facilities with extremely tight budgets and underscoring 
the need for them to have access to DHS funding.
    I would like to commend Chairman Thompson on the good work he has 
done to help secure nonprofit organizations from terrorist attacks 
through the Securing American Nonprofit Organizations Against Terrorism 
Act, which is now law. While the evolution of the threat landscape 
requires DHS preparedness grant programs to evolve with it, it is 
important that stakeholder perspectives are considered and incorporated 
into changes to the grant programs, including changes DHS made in 
fiscal year 2020 and fiscal year 2021.
    I am pleased that the Department has an interest in ensuring 
preparedness grant dollars are spent how and where they are needed 
most, and that Secretary Mayorkas has acknowledged the need to assess 
how these grant programs could be improved. While I look forward to 
working with the Biden administration to improve the grant programs, it 
is also the role of this subcommittee, through its oversight function, 
to ensure they are getting it right. I am pleased that we have 
assembled this expert panel of stakeholders to assist us in that 
effort.
    I look forward to engaging with you today on how DHS preparedness 
grant programs are used to strengthen your communities, the recent 
changes made to the programs in fiscal year 2020 and fiscal year 2021, 
and the future of the grant programs.

    Chairwoman Demings. It is now my pleasure to recognize the 
Ranking Member of this subcommittee, the gentlewoman from the 
great State of Florida, Ms. Cammack, for an opening statement.
    Ms. Cammack. Thank you to my fellow Floridan and 
Chairwoman, Val Demings.
    It is a very exciting time for us to be hosting our very 
first subcommittee hearing. I think this is historic that we 
have 2 Floridian women that are spearheading this subcommittee. 
So, I look very much forward to working with you.
    As we all know, this year marks the 20th anniversary of 
September 11, the worst terrorist attack on American soil. As 
our Nation watched the events of that date unfold, we saw 
first-hand the countless emergency responders who rushed toward 
the danger without a second thought, risking their lives, and 
sadly many made the ultimate sacrifice to save the lives of 
others. That tragic day in 2001 highlighted the invaluable role 
that first responders play in communities all across America.
    From responding to major terrorist attacks and detection of 
weapons of mass destruction, to security screening operations 
and fire suppression activities, we rely on our first 
responders to keep us safe each and every day. FEMA's 
preparedness grants provide State, local, Tribal, and 
territorial governments the ability to build, sustain, and 
improve capabilities necessary to prepare for and protect 
against, respond to, recover from, and mitigate hazards at the 
local levels. Preparedness grant dollars enable the funding of 
necessary training exercises, information sharing initiatives, 
community awareness campaigns, and the purchasing of vital 
equipment, among other items.
    In my home State of Florida, Urban Area Security Initiative 
grants funded a boat for the Tampa Police Department to 
regularly conduct patrols within the Port of Tampa Bay to 
increase port security and deter criminal and terrorist 
activity. I have myself witnessed this equipment in action and 
it is truly a necessity to keep our communities safe.
    The Florida Department of Law Enforcement conducted a 
grant-funded State-wide cyber training for IT security managers 
and high-tech crime investigators to help determine the 
effectiveness of their information security defenses. In 2019 
State Homeland Security Grant Program funds were spent to 
purchase anti-vehicle barriers as a pilot project for Florida's 
Northeast Regional Domestic Security Task Force. Port Security 
grant program funds were utilized by Florida law enforcement to 
attend the Maritime Tactical Operations Training Program at the 
Federal Law Enforcement Training Center, also known as FLETC, 
where they learned tactical boarding procedures, tactical water 
survival, and vessel clearing and shooting from an unstable 
platform. In a State like Florida, with 14 deep-water ports, it 
is critical that this training is readily available for all of 
our first responders.
    Bringing it a little bit closer to home, my husband Matt is 
a firefighter, paramedic, and SWAT medic. The Assistance to 
Firefighter Grants, ASG, has provided financial assistance 
directly to eligible firefighter departments, such as his, 
emergency medical service, EMS, organizations, and State fire 
training academies for critical training and equipment. The ASG 
program enhances response capabilities to more effectively 
protect the health and safety of our first responders and the 
public with respect to fire and fire-related hazards.
    The importance of these grant programs cannot be 
understated. However, as the threat environment changes, it is 
important that these grant systems evolve and adapt to emerging 
challenges and become more responsive to the needs of first 
responders and our local communities.
    It has come to my attention through daily interactions with 
first responders in my district that grant monies are often 
times not allowed to fund essential equipment necessary to keep 
our local first responders safe. As new technology becomes 
available it is important that allowable uses of these funds 
remain flexible to best serve these everyday heroes.
    Furthermore, I think it is important that these grant 
programs, and applying to receive funds, is more accessible and 
``user-friendly'' for smaller and more rural emergency 
responder departments. The threats that our communities face is 
wide-spread and not everyone has available resources to staff 
solely dedicated to the--to staff the dedicated process of the 
grant application process.
    We must ensure that all of our first responders have the 
tools they need to get the job done and to keep us safe. 
Preparedness grants that support our States, urban areas, 
ports, transit systems, fire services, and non-profits are 
crucial to maintaining capabilities, providing training, and 
purchasing equipment for the overall protection of our 
communities and way of life. I am proud to support these 
programs that strengthen our Nation's overall emergency 
preparedness postures.
    Thank you very much to my colleague, Chairwoman Demings, 
for holding this important hearing today. I very much look 
forward to hearing from our witnesses on the necessity of these 
grant programs and how we can better support these initiatives. 
We need to continue to enhance the critical safety and security 
initiatives to keep our communities safe.
    So I look forward to the recommendations to improve the 
grants going forward. Thank you to all our witnesses again for 
your testimony here today.
    With that, I yield back.
    [The statement of Ranking Member Cammack follows:]
                Statement of Ranking Member Kat Cammack
                             April 28, 2021
    This year marks the 20th anniversary of September 11--the worst 
terrorist attack on American soil. As our Nation watched the events of 
that date unfold, we saw first-hand the countless emergency responders 
who rushed toward the danger without a second thought, risked their 
lives, and sadly many made the ultimate sacrifice to save the lives of 
others.
    That tragic day in 2001 highlighted the invaluable role that first 
responders play in communities across America. From responding to major 
terrorist attacks and detection of weapons of mass destruction to 
security screening operations and fire suppression activities, we rely 
on first responders to keep us safe each and every day.
    FEMA's preparedness grants provide State, local, Tribal, and 
territorial governments the ability to build, sustain, and improve 
capabilities to prepare for, protect against, respond to, recover from, 
and mitigate all hazards at the local level.
    Preparedness grant dollars enable the funding of necessary 
training, exercises, information-sharing initiatives, community 
awareness campaigns, and the purchasing of vital equipment, among other 
items.
    In my home State of Florida, Urban Area Security Initiative (UASI) 
grants funded a boat for the Tampa Police Department to regularly 
conduct patrols within Port Tampa Bay to increase port security and 
deter criminal or terrorist activity.
    The Florida Department of Law Enforcement conducted a grant-funded 
State-wide cyber training for IT security managers and high-tech crime 
investigators to help determine the effectiveness of their information 
security defenses.
    In 2019, State Homeland Security Grant Program funds were spent to 
purchase anti-vehicle barriers as a pilot project for Florida's 
Northeast Regional Domestic Security Task Force.
    Port Security Grant Program funds were utilized by Florida law 
enforcement to attend the Maritime Tactical Operations Training Program 
at the Federal Law Enforcement Training Center (FLETC) where they 
learned tactical boarding procedures, tactical water survival, and 
vessel clearing and shooting from an unstable platform.
    A little closer to home--my husband is a Firefighter/Paramedic & 
SWAT Medic--the Assistance to Firefighter Grants (AFG) provide 
financial assistance directly to eligible fire departments, emergency 
medical service (EMS) organizations, and State Fire Training Academies 
for critical training and equipment.
    The AFG program enhances response capabilities to more effectively 
protect the health and safety of first responders and the public with 
respect to fire and fire-related hazards.
    The importance of these grant programs cannot be understated. 
However, as the threat environment changes, it is important that these 
grant systems evolve and adapt to emerging challenges and become more 
responsive to the needs of first responders and local needs.
    It has come to my attention through daily interactions with first 
responders in my District, that grant monies are oftentimes not allowed 
to fund essential equipment necessary to keep our local first 
responders safe. As new technology becomes available, it is important 
that allowable uses of these funds remains flexible to best serve these 
everyday heroes.
    Furthermore, I think it is important that these grant programs and 
applying to receive funds is more accessible and ``user-friendly'' for 
smaller or more rural emergency responder departments. The threats that 
our communities face is wide-spread and not everybody has the available 
resources to have staff solely dedicated to the grant application 
process. We must ensure all our first responders have the tools they 
need to get the job done and keep us safe.
    Preparedness grants that support our States, urban areas, ports, 
transit systems, fire services, and non-profits are crucial to 
maintaining capabilities, providing training, and purchasing equipment 
for the overall protection of our communities and way of life. I am 
proud to support these programs that strengthen our Nation's overall 
emergency preparedness posture.
    Thank you to my colleague, Chairwoman Demings for holding this 
important hearing today and I look forward to hearing from our 
witnesses on the necessity of these grant programs, how they've 
supported and continue to enhance critical safety and security 
initiatives, and any recommendations to improve the grants going 
forward.

    Chairwoman Demings. The Chair thanks the Ranking Member.
    Members are also reminded that the committees will operate 
according to the guidelines laid out by the Chairman and 
Ranking Member regarding remote procedures.
    Without objection, Members not on the subcommittee shall be 
permitted to sit and question the witnesses.
    It is now the Chair's pleasure to recognize the Chairman of 
the full committee, the gentleman from Mississippi, Mr. 
Thompson, for an opening statement.
    Chairman Thompson. Thank you very much, Madam Chair. Let me 
say before I give my formal talk how happy I am that the 2 
ladies from Florida are running the show. You both are doing a 
wonderful job and Florida could not be better represented by 
the 2 of you.
    So let me formally thank you as subcommittee Chair and 
Ranking Member for holding today's hearing on the Department of 
Homeland Security's preparedness grant. The committee has 
always prioritized oversight of Homeland Security Grants and I 
am glad that the subcommittee is starting this Congress with 
such a critical hearing.
    The Homeland Security Grant Program, also commonly referred 
to as Preparedness Grants, was created nearly 20 years ago 
after the September 11 terrorist attack to fill gaps in our 
National emergency preparedness.
    It was apparent the Federal Government needed to do more 
work to provide critical resources directly to our first 
responders and State and local government, which is why 
Congress created the State Homeland Security Program and Urban 
Area Security Initiative Program, along with other grant 
programs. These programs have proven to be critical resources 
over the last 2 decades. While State and local governments have 
made great strides in their preparedness capabilities, we must 
recognize that the threat landscape is ever-evolving and the 
threats we now face have expanded considerably, to include 
rising incidents of domestic terrorism to cyber attacks. As the 
threats to our Nation continue to evolve, so too must the 
Homeland Security Preparedness Grant Program.
    Nearly 20 years ago we focused our grants primarily on 
combatting terrorism from abroad. Now, some of the most 
dangerous threats we face as a Nation are home-grown, lone 
offenders, and small groups of individuals who commit acts of 
violence motivated by domestic extremist ideological benefits.
    In fact, in recent years houses of worship and other non-
profits have been targets of violence. That is why I was 
pleased when my bill, the American Non-Profit Organizations 
against Terrorism Act, was signed into law last year. The law 
authorized critical grant funding to non-profits and faith-
based organizations to help secure their facilities against 
terrorist attacks.
    I am glad that former President Trump's proposed cuts to 
existing preparedness grants funding failed due to bipartisan 
opposition from Member of Congress. Those cuts, if enacted, 
would have been devastating for our Nation and would have 
hindered our ability to keep America safe.
    I hope to hear from our witnesses today about how DHS 
grants have aided them as they make their communities safer and 
how we can ensure the grant programs best secure our States and 
cities from terrorist threats.
    I look forward to working with the Biden administration and 
my colleagues and continue to support communities in the fight 
of all forms of terrorism in our homeland.
    Thank you, Madam Chair, and I yield back.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             April 28, 2021
    The committee has always prioritized oversight of homeland security 
grants, and I am glad that the subcommittee is starting this Congress 
with such a critical hearing.
    The homeland security grant programs, also commonly referred to as 
preparedness grants, were created nearly 20 years ago after the 
September 11 terrorist attacks revealed gaps in our Nation's emergency 
preparedness. It was apparent the Federal Government needed to do more 
to provide critical resources directly to our first responders and 
State and local governments, which is why Congress created the State 
Homeland Security Program and Urban Area Security Initiative Program, 
along with other grant programs. These programs have proven to be 
critical resources over the last 2 decades.
    While State and local governments have made great strides in their 
preparedness capabilities, we must recognize that the threat landscape 
is ever-evolving and the threats we now face have expanded considerably 
to include rising incidents of domestic terrorism to cyber attacks. As 
the threats to our Nation continue to evolve, so too must the homeland 
security preparedness grant programs.
    Nearly 20 years ago, we focused our grant efforts primarily on 
combating terrorism from abroad. Now, some of the most dangerous 
threats we face as a Nation are home-grown, lone offenders, and small 
groups of individuals who commit acts of violence motivated by domestic 
extremist ideological beliefs. In fact, in recent years, houses of 
worship and other nonprofits have been targets of violence. This is why 
I was pleased when my bill, the ``American Nonprofit Organizations 
Against Terrorism Act,'' was signed into law last year. The law 
authorizes critical grant funding to nonprofits and faith-based 
organizations to help secure their facilities against terrorist 
attacks.
    I am glad that former President Trump's proposed cuts to existing 
preparedness grant funding failed due to bipartisan opposition from 
Members of Congress. Those cuts, if enacted, would have been 
devastating for our Nation and would have hindered our ability to keep 
America safe.
    I hope to hear from our witnesses today about how DHS grants have 
aided them as they make their communities safer and how we can ensure 
the grant programs best secure our States and cities from terrorist 
threats. I look forward to working with the Biden administration and my 
colleagues in continuing to support communities in the fight against 
all forms of terrorism in our homeland.

    Chairwoman Demings. Thank you so much to our Chairman.
    It is now my pleasure to welcome our panel of witnesses.
    Our first witness is Hawaii Governor David Ige, appearing 
on behalf of the National Governors Association. Governor Ige 
was sworn in as the eighth Governor of the State of Hawaii on 
December 1, 2014. Prior to becoming Governor, he served in the 
Hawaii legislature for almost 30 years. Before that Governor 
Ige had a career as an electrical engineer and a project 
manager.
    Our second witness is the director of New Jersey's Office 
of Homeland Security and Preparedness, Jared Maples. Mr. Maples 
has served in that capacity since 2017 and served as the 
Federally-designed Homeland Security Advisor to the Governor, 
in addition to serving as the cabinet-level executive 
responsible for coordinating and leading New Jersey's 
counterterrorism, cybersecurity, and emergency preparedness 
efforts.
    Mr. Maples has testified before the subcommittee on 
multiple occasions, and I want to thank him for again being 
willing to provide us with his insight on these very important 
topics.
    Our third witness, certainly no stranger to me, the chief 
of the Orlando Police Department, Orlando Rolon. He is 
appearing on behalf of the Major Cities Chief Association. 
Chief Rolon started with the Orlando Police Department in 1992. 
Having previously served with him while I was in his position, 
I am well aware of what a dedicated public servant he is.
    Chief Rolon, it is great to have you with us. I know your 
testimony will be invaluable for this subcommittee. Thank you.
    Finally, I understand that Ranking Member Cammack would 
like to introduce our final witness, battalion chief of Ocala 
Fire Rescue, Robert Altman.
    Ms. Cammack. Thank you, Chairwoman Demings.
    I am very, very proud to introduce today a constituent of 
mine, Mr. Robert Altman. Mr. Altman is a 31-year veteran of 
Ocala Fire Rescue. After serving as captain for 18 years, Mr. 
Altman was promoted to battalion chief in 2019. Throughout his 
career with Ocala Fire Rescue Mr. Altman has played integral 
roles with special operations and urban search and rescue 
teams, responding to numerous disasters.
    As a member of the International Association of 
Firefighters, Mr. Altman was selected to participate in the 
peer review process for FEMA's Assistance to Firefighters 
Grants Program, or AFG, as we all know them, where I am sure 
the knowledge that he has gained from his extensive career is 
very welcome and appreciated here today, as he has helped 
review thousands of applications.
    I really appreciate Mr. Altman for his continued service to 
our community and I am so pleased that he is able to testify 
here today and represent the Gator Nation--I had to throw that 
in there.
    So thank you, Rob. Appreciate you.
    With that, I yield back.
    Chairwoman Demings. Thank you so much Ranking Member, and 
thank you so much, Chief Altman, for being with us today. That 
comes from a Florida State Seminole.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize their statements for 5 
minutes, beginning with Governor Ige.
    Governor.

 STATEMENT OF HONORABLE DAVID Y. IGE, GOVERNOR, STATE OF HAWAII

    Governor Ige. Good morning and aloha from Hawaii. Thank you 
so much, Chairwoman Demings, Chairman Thompson, and Ranking 
Member Cammack for this opportunity.
    I am representing the National Governor's Association, the 
bipartisan voice of the Nation's Governors, comprising the 55 
States, territories, and commonwealths. Where appropriate, I 
will also add my perspective as Governor of the State of 
Hawaii.
    Now, for example, we learned much in 2018 as we 
concurrently responded to and managed the recovery from the 
Kilauea eruption and the wettest tropical cycle ever recorded 
in Hawaii and the Nation. We are still dealing with the unique 
challenges our island State faces from the COVID-19 pandemic.
    My testimony will focus on 4 main areas, cybersecurity, 
FEMA programs, preventing targeted violence, and COVID-19 
challenges and lessons learned. My written testimony provides 
additional information in each of these areas.
    First, I would like to discuss cybersecurity. As former co-
chairman of the Council on Governors, a bipartisan group of 
Governors that work with the administration on key National 
security issues, I worked with my peers and Federal partners 
from the Department of Homeland Security, the Department of 
Defense, and the White House on several cyber initiatives over 
the past 2 years. One area that needs continued work is 
addressing the complexity of authorities related to 
cybersecurity.
    Specifically, Governors have asked DHS and DoD to better 
define the roles and responsibilities at the Federal level 
related to response efforts during a cybersecurity event. In 
addition, the NGA has called on Congress to create a dedicated 
State and local cybersecurity grant program. Finally, we 
strongly urge Congress to include cybersecurity in any National 
infrastructure plan or legislative package.
    With respect to FEMA programs, Governors must prepare for, 
respond to, and recover from man-made and increased occurrences 
of catastrophic natural disasters. Much of our ability to do 
this comes through the FEMA grant funding. Governors remain 
concerned that current funding levels are insufficient. On-
going dedicated Federal support is crucial.
    Another area of concern is that FEMA's preparedness grants 
prescribe where 20 percent of the funding must go. Governors 
have concern that continued carve-outs hurt overall efforts. We 
look forward to working with DHS Secretary Mayorkas on this 
issue.
    I also want to note NGA's concerns about FEMA's proposed 
rule titled ``Cost of Assistance Estimates in Disaster 
Declaration Process for the Public Assistance Program''. The 
time and manner in which these changes have been proposed will 
unduly burden State, territorial, and local governments as they 
continue responding to and recovering from disasters, both 
COVID- and non-COVID-related.
    Combatting the rise in domestic violent extremism and 
preventing acts of targeted violence are serious issues. 
Through a 2-year grant from the Department of Homeland 
Security, the NGA worked with 5 States to develop State-wide 
multi-disciplinary strategies to prevent targeted violence. 
With NGA's guidance, Hawaii created a multi-disciplinary team 
focused on education and we plan to establish a threat 
assessment team focused on health care infrastructure.
    There is no one-size-fits-all solution, but the work done 
by the NGA center is a great starting point and resource for 
decision makers at both the State and Federal level.
    I will conclude with these observations and lessons learned 
from COVID-19. During COVID 2 key issues arose within FEMA and 
DHS for Governors, eligibility for under public assistance and 
a Federal-State cost share requirements. Written testimony 
details the challenges we have experienced in these areas and I 
want to focus on our recommendations.
    Federal funding needs to be immediate, accessible, and 
flexible enough to address emerging needs for critical 
materials during this on-going crisis. In addition, NGA calls 
for a simplification of the public assistance eligibility 
requirements to ensure efficiency and simplicity. The work and 
service of the National Guard has been critical this past year 
and NGA has called for a review of a legislative solution for 
the use of Title 32 for large-scale disasters and pandemics.
    In addition, the FEMA mission assignment process should be 
reviewed to ensure a better-coordinated, streamlined, and rapid 
responsive system.
    Thank you so much for this opportunity to share with you.
    Aloha.
    [The prepared statement of Governor Ige follows:]
                   Prepared Statement of David Y. Ige
                             April 28, 2021
    Good morning, thank you, Chairwoman Demings and Ranking Member 
Cammack, for holding this hearing and inviting me to speak today.
    I am here representing the National Governors Association (NGA), 
the bipartisan voice of the Nation's Governors, comprising the 55 
States, territories, and commonwealths. Through NGA, Governors and 
their policy advisors share best practices, speak with an informed 
voice on National policy and develop innovative solutions that improve 
citizens' lives through State government and support the principles of 
Federalism.
    Where appropriate, I will also provide my perspective as Governor 
of Hawai'i. My State has a diverse perspective on preparedness and 
disasters learned from events such as earthquakes to volcanic eruptions 
to unique challenges from COVID-19 as an island State.
    We as a State have had to learn to manage the response and recovery 
process concurrently as we continue to manage the recovery from the 
Kilauea eruption and the response to the COVID-19 pandemic which has 
left us with one of the highest unemployment rates in the Nation.
    There is a lot to discuss with regards to the Department of 
Homeland Security but in my testimony today I will highlight key themes 
and considerations in 4 main areas:
  <bullet> Cybersecurity
  <bullet> FEMA Programs to include grants and regulations
  <bullet> Preventing targeted violence
  <bullet> COVID-19 challenges and lessons learned.
                             cybersecurity
    First, I would like to discuss a few areas within cybersecurity 
that Governors and our policy advisors have raised as concerns and 
opportunities for State, territorial, and Federal Governments.
Federal Roles, Responsibilities, and Capabilities
    As former co-chair of the Presidentially-appointed Council of 
Governors, a bipartisan group of Governors that work with the 
administration on key National security issues, I worked with my peers 
and Federal partners from the Department of Homeland Security (OHS), 
the Department of Defense (DOD), and the White House on several cyber 
initiatives over the past 2 years.
    One area that needs continued work is addressing the complexity of 
authorities related to cybersecurity, specifically in dealing with 
critical infrastructure and the resources available to a State or 
territory during a cyber event.
    Specifically, Governors asked DHS and DOD to better define the 
roles and responsibilities at the Federal level related to 
cybersecurity response efforts. Governors need a more detailed and up-
to-date summary--beyond the 2016 National Cyber Incident Response Plan 
noted as a resource by our Federal partners. This also should include 
an overview of what the whole-of-Government cyber response plan in the 
case of a catastrophic cyber event looks like.
    We believe this will afford States and territories a better idea of 
what resources are available to us in the event of a cyber incident as 
well as help to develop a process to request and receive assets where 
appropriate. A better understanding of the Federal roles and 
responsibilities will also help State, territorial, and the Federal 
Government with better and timely information sharing.
    And finally, over the past year-and-a-half, the Hawai'i National 
Guard, along with Ohio and Washington, participated in a Cyber Mission 
Assurance Team (CMAT) pilot program. The 10-person CMAT performed 
comprehensive mission/risk analysis, vulnerability assessments, and 
facilitated information sharing. The proof of concept is being reviewed 
by the National Guard Bureau; however, I believe that CMAT or a similar 
capability should be provided in each of the States, territories, and 
commonwealths. I believe this capability will augment OHS cyber 
capabilities throughout the Nation.
Dedicated Funding
    For several years, NGA has called on Congress to strengthen the 
Nation's cybersecurity posture through the creation of a dedicated 
State, territorial, and local cybersecurity grant program.
    We believe that a fully funded and dedicated cybersecurity program 
can help States, territories, and localities develop and implement 
innovative and effective cybersecurity practices to include remote 
work; help to build resources and capabilities; better identify, 
protect against, and detect cyber threats; and help to enhance 
partnerships among different levels of government, including local 
partners.
    Cybersecurity is the No. 1 growing threat to the Nation's critical 
infrastructure. This is especially concerning for the State of Hawai'i 
as the largest combatant command with all its service components reside 
in the Island of Oahu. A cyber attack could against Hawai'i's critical 
infrastructure could impact USINDOPACOM's mission assurance.
    Over the past 2 years, both the Trump and Biden administrations 
have tried to better prioritize cybersecurity investment via carve-outs 
in FEMA grant programs. We appreciate and share DHS's renewed focus on 
cybersecurity to include resiliency, workforce development, modernized 
systems, and collaboration. But, to accomplish this fully, Governors 
believe that carve-outs can only go so far; dedicated funds that 
incentivize economies of scale are needed to be most effective.
    COVID-19, along with several high-profile cyber intrusions, such as 
SolarWinds, Microsoft Exchange, and the 2015 Office of Personnel 
Management (OPM) data breach, revealed that the Nation needs to address 
cybersecurity and IT infrastructure resilience comprehensively.
    Reliance on State, territorial, and local networks during the 
pandemic has increased the risk of vulnerabilities and gaps. This surge 
on our information technology infrastructure--to include administering 
large and diverse Federal funds across State, territorial, and local 
governments--requires additional investment in both funding and 
manpower to keep up with the massive usage.
    Cybersecurity, and ensuring the availability and reliability of IT 
infrastructure, is a critical component of our infrastructure. 
Therefore, Congress must recognize that cybersecurity is an important 
piece of any National infrastructure plan or infrastructure legislative 
package.
                 fema programs--grants and regulations
    With the constantly-evolving landscape of man-made disasters and 
increased occurrences of catastrophic natural disasters, Governors must 
maintain and continually update strategies to prevent, prepare for, 
respond to, and recover from emergencies.
    Leveraging resources, strengthening coordination, and improving 
information sharing between Federal, State, territorial, and local 
authorities remain critical to addressing challenges and meeting the 
homeland security and public safety needs of our States, territories, 
and the Nation. Federal partnership through the Department of Homeland 
Security and the Federal Emergency Management Agency (FEMA) are 
critical to these efforts.
    Much of our ability to do this comes through FEMA grant funding, 
which we leverage to develop and sustain critical capabilities such as 
intelligence, fusion centers, State-wide interoperable emergency 
communications, specialized regional response teams, threat 
assessments, and cybersecurity initiatives.
    However, Governors remain concerned that current funding levels for 
these programs are not sufficient and make it difficult to sustain core 
capabilities, invest in innovative approaches, and ensure flexibly to 
adjust to emerging threats. States and territories have continued to 
respond efficiently to disasters; however, States and territories 
cannot maintain the status quo indefinitely, and COVID-19 has 
highlighted the gaps that exist when facing prolonged and concurrent 
crises. Territories are further limited in their response to both 
COVID-19 and new emergencies due to their unequal treatment under 
Federal programs, the fragility of their health care infrastructure, 
and having been impacted by severe natural disasters in recent years.
    COVID-19-related strain has demonstrated many areas of under 
investment in Hawai'i's IT infrastructure, from our unemployment 
insurance system, which was quickly overwhelmed and vulnerable to 
fraud, to broadband access in rural areas as the Department of 
Education tried to continue to care for our students through remote 
learning.
    On-going, dedicated Federal support is crucial to ensure States, 
territories, and localities have sufficient capacity to handle more 
routine disasters as well as scale for catastrophic events. Governors 
believe Federal funding provided to States and territories should focus 
on developing or enhancing common core capabilities and support efforts 
to measure the effectiveness of grant funds in building and maintaining 
preparedness and response capabilities.
National Priorities
    As you know, last year the Trump administration undertook efforts 
to reprioritize investments in homeland security through the 
establishment of National Priorities for FEMA's preparedness grants. 
This was done by prescribing where 20 percent of the funding must go.
    While we agreed with the focus on the core priorities defined by 
the DHS, Governors and our homeland security and emergency management 
advisors have concerns that continued carve-outs hurt overall efforts. 
NGA and our coalition partners noted to the Trump administration 2 key 
issues for consideration:
  <bullet> A delay of 1 year to account for the on-going COVID-19 
        pandemic and to allow States, territories, and localities the 
        ability to focus on this mission rather than rethinking their 
        grant applications, and
  <bullet> Work with stakeholders across all levels of government to 
        adequately prepare for and implement new changes in advance of 
        formal notices of funding opportunities.
    However, the administration moved forward with the new 
requirements.
    This year, the Biden administration increased the minimum amount 
each State must spend on specific interest areas from 20 to 30 percent 
of the total grant award.
    As you know, threats and challenges are only growing across the 
country. There are only so many ways you can divvy up funding before 
there is little left to use for innovative and new approaches. In some 
instances, smaller jurisdictions may go with less effective methods to 
avoid being questioned on their spending. Furthermore, by prescribing 
amounts to be spent on specific activities, previous investments for 
the same efforts could result in duplicative spending and detract from 
other efforts and priorities under way in the State or territory.
    We can all agree that our investments should be tailored to threats 
and needs, but not at the expense of other programs or investments 
already made.
    It is critical for the Department to provide timely guidance and 
transparency in the decision-making process. We are pleased to see that 
the DHS Secretary Mayorkas has identified grant programs as an area for 
engagement next year, and Governors look forward to working with the 
Department in these efforts.
    As chief executive officers of our States, ensuring the safety and 
security of citizens is one of the paramount duties and these Federal 
funding streams are a critical component of achieving that end. We 
encourage Congress and the administration to work with us on any 
reforms.
Public Assistance Regulations
    I also wanted to note to the committee concerns NGA and our 
partners raised with FEMA's proposed rule titled ``Cost of Assistance 
Estimates in the Disaster Declaration Process for the Public Assistance 
Program.''
    While we understand the need for FEMA to periodically review 
disaster policy, we believe the time and manner in which these changes 
have been proposed will unduly burden State, territorial, and local 
governments as they continue responding to and recovering from 
disasters, both COVID- and non-COVID-related.
    In a coalition letter to FEMA, we noted our concerns with the 
proposed rule. We believe that raising the threshold for Public 
Assistance (PA) will inadvertently reduce mitigation and resilience 
funding and other Federal programs. Furthermore, we believe that 
utilizing the Total Taxable Resources (TTR) metric is inherently 
inequitable as it does not reflect the reality of a State's ability to 
tax those actual resources.
    Our letter provided several recommendations for FEMA to consider, 
to include:
  <bullet> Limiting adverse impacts to States, territories, and 
        localities by using a phased-in approach over a long period of 
        time when considering an adjustment to the per capita 
        indicator.
  <bullet> Creating a standardized method for weighing localized 
        impacts and ensure States and territories have insight as to 
        how FEMA applies their evaluation and recommendation to the 
        President, and
  <bullet> Reevaluating the size and scope of FEMA's response.
    We encourage Congress to also consider our concerns should this 
proposed rule continue to move forward.
                   preventing targeted violence (ptv)
    Combatting the rise in violent, domestic extremism and preventing 
acts of targeted violence are among the most serious issues each State 
and territory grapples with every day. I would like to briefly note the 
work of the National Governors Association's Center for Best Practices 
(NGA Center) in this space.
    In 2017, the NGA Center received a 2-year grant from the Department 
of Homeland Security's Office of Targeted Violence and Terrorism 
Prevention to support States', territories' and commonwealths' efforts 
to explore and develop multidisciplinary strategies to prevent targeted 
violence. NGA worked with 5 States during a policy academy that helped 
develop State-wide preventing targeted violence (PTV) strategies and 
action plans.
    In continuation of its efforts to assist States and territories in 
developing prevention strategies, in January of this past year, the NGA 
Center released the Governors' Roadmap to Preventing Targeted Violence, 
which distills the latest research and draws from elements of public-
health interventions to provide guidance to Governors, State, 
territorial and local leaders, and other stakeholders on how to prevent 
ideologically-inspired violence.
    As Governors, this roadmap helps provides us with some best 
practices--such as leveraging our role as convener, executive, and 
administrator at key points in implementing targeted violence 
prevention, including strategy setting, program design, and securing 
community support.
    As Governor of Hawai'i, I am dedicated to creating a safe State 
where everyone can thrive. Our remote geographic location makes it an 
imperative that we identify and mitigate threats early and prior to an 
incident. This requires a whole-of-community layered and 
multidisciplinary approach.
    One of our innovations has been the formation of threat assessment 
teams, multidisciplinary teams that focus on specific aspects of 
targeted violence. The flagship team, Threat Team Oahu (TTO), an 
island-specific threat assessment team, has been highly effective in 
bringing together stakeholders and we are currently working to 
replicate its success with State-wide discipline-specific threat 
assessment teams.
    We have already leveraged the lessons learned from TTO to create a 
multidisciplinary team focused on education, Threat Team EDU, aimed at 
preventing acts of targeted violence in throughout the State's 
educational institutions.
    We are excited to continue to work with the NGA Center to improve 
and expand our programs and continue building State-wide discipline-
specific threat assessment teams in the hopes of promoting increased 
information sharing and stronger situational awareness. Specifically, 
in collaboration with the NGA Center, Hawai'i plans to establish as 
threat assessment team focused on health care infrastructure.
    Given the events over the past year, we know there is no one-size-
fits-all solution. But the work done by the NGA Center is a great 
starting point and resource for decision makers at the State, 
territorial, and Federal levels.
                                covid-19
    I would like to conclude with observations and lessons learned from 
the COVID-19 experience. Governors continue to be on the front lines of 
the pandemic, and therefore we face a myriad of challenges from health 
preparedness to State and territory stabilization, but for today's 
hearing I will focus on areas within FEMA and DHS.
Public Assistance Eligibility and Cost Share
    During COVID-19, 2 key issues arose for Governors--eligibility 
under public assistance and the State-Federal cost share requirements.
    Early on, recognizing the unique and wide-spread impact of COVID-19 
across the Nation, Governors made numerous requests to the Trump 
administration to authorize the increase of 100 percent Federal cost 
share for Major Disaster Declarations under FEMA. Unfortunately, this 
call went unanswered throughout 2020.
    Along with the need for financial assistance, State and territories 
saw challenges with FEMA's Public Assistance guidance.
    At the start, State and territories were getting inconsistent 
messaging across FEMA regions on what items were eligible for 
reimbursement. Some States had invested in funding for masks and 
disinfectants for schools, while other sought assistance with increased 
cost in operating 24-hour, 7-days-a-week emergency operations centers. 
This was compounded by challenges in locating and procuring PPE and 
health supplies due to a global supply shortage. Territories, as well 
as my own State, are especially vulnerable during disruptions in 
maritime commerce and supply chains due to their geographic location.
    In August of last year, as rumors of forth-coming restrictive FEMA 
guidance began to circulate, NGA along with 7 of our partner State and 
local associations, called on FEMA not to limit the eligibility under 
Public Assistance and avoid any arbitrary distinctions between 
``response'' and ``reopening.'' Unfortunately, the Trump administration 
chose a more restrictive policy, which caused greater confusion, 
frustration, and concern among State, territories, and localities.
    Reasons such as these are why NGA and other associations supported 
H.R. 8266, the FEMA Assistance Relief Act last year, which would have 
adjusted the FEMA cost share as well as clarify and codify eligibility 
requirements for COVID-19 Major Disasters.
    FEMA's reimbursement process for disaster recovery is designed 
around rebuilding after wide-spread physical damage from a natural 
disaster, such as a hurricane. It is important to recognize that for 
COVID-19, States and territories are responding to an on-going and 
evolving public health crisis. That is why Federal funding, 
specifically FEMA funding, needs to be immediate, accessible, and 
flexible enough to address emerging needs for critical materials. 
Changing policy guidance makes it difficult to effectively plan and 
execute programs while ensuring good stewardship of taxpayer funding.
    Governors truly appreciate the Biden administration's willingness 
to address our calls for 100 percent Federal cost share early on, 
taking action on January 21 of this year to provide that support for 
emergency protective measures and the use of the National Guard dating 
back to the start of the pandemic, as well as expanding some public 
assistance eligibility.
    However, several changes to policy guidance from FEMA since the 
start of the pandemic means that States and territories will have 3 
different eligibility requirements based on arbitrary dates. These 3 
eligibility windows will pose challenges to verifying duplication of 
benefits, untangling obligated funds, and will strain personnel at the 
State, territorial, and Federal level.
    NGA calls for the simplification of the eligibility requirements 
from the start of the pandemic to ensure efficiency and simplicity and 
to ease the back-end paperwork and auditing process.
    My State ran afoul of the changing guidance around purchases to 
support a safe environment in our public schools. This is compounded by 
the fact that as a smaller State we were forced to increase our order 
sizes to compete with States that had higher demand. This is now 
leading to issues as we work to manage the excess inventory.
National Guard
    And finally, Governors would also like to recognize the work and 
service of our National Guard over the past year-and-a-half, not just 
during the pandemic but in response to a variety of domestic and 
overseas missions.
    Specifically, to COVID-19, since the beginning of the pandemic, 
Governors called for the use of the National Guard, and the 
authorization of Title 32, which was granted and extended several 
times.
    It is important for the committee and Congress to recognize that 
the lack of a formal process or guidance led to significant confusion 
and delays, especially at the start of the pandemic.
    Even more concerning was the requirement that States and 
territories fund 25 percent of the cost associated with a Federal duty 
status. Never have States and territories been required to fund a 
Federal duty status, let alone during such an unprecedented pandemic 
and economic struggle.
    As noted earlier, we appreciate President Biden retroactively 
authorizing Title 32 at 100 percent Federal funding for the use of our 
National Guard, and the extension of this authority through September 
of this year.
    During a crisis, Governors should be able to rely on the Federal 
Government to provide clear guidance and requirements; a well-
understood and transparent process; and resources, all in a timely and 
realistic manner. This guidance should be consistent and applied in a 
transparent and equitable fashion.
    This is why NGA has called for a review and a legislative solution 
for the use of Title 32 for large-scale disasters and pandemics. How 
Title 32 was utilized during COVID-19 also highlights challenges with 
the FEMA mission assignment process and utilization of the Disaster 
Relief Funds. This process should be reviewed by the committee to 
ensure a better coordinated, streamlined, rapid, and responsive system 
at the Federal level.
                               conclusion
    Again, I would like to thank the committee for inviting NGA to 
testify today on these critical issues. Governors across the country, 
and our staff, stand ready to work with you and Members of Congress as 
you look to address challenges in the homeland security and disaster 
response arena, be it review of the Stafford Act or FEMA grant 
programs.
    Thank you, and I look forward to your questions.

    Chairwoman Demings. Thank you so much, Governor Ige, for 
your testimony.
    I now recognize Director Maples to summarize his statement 
for 5 minutes.

  STATEMENT OF JARED M. MAPLES, DIRECTOR, OFFICE OF HOMELAND 
         SECURITY AND PREPAREDNESS, STATE OF NEW JERSEY

    Mr. Maples. Thank you, Chairwoman. Chairwoman Demings, 
thank you for the opportunity to testify before you today. It 
is an honor to speak with you and share the work my office is 
doing to keep our residents, visitors, and institutions of New 
Jersey safe, especially with regard to Homeland Security grants 
and emergency preparedness.
    The New Jersey Office of Homeland Security on Preparedness, 
NJOHSP, is tasked with coordinating the State's 
counterterrorism, cybersecurity, and emergency preparedness 
efforts across all levels of government, law enforcement, non-
profit organizations, and the private sector. As New Jersey 
faces complex security challenges driven by evolving threats, 
we know these threats neither start nor end at our State's 
borders.
    Last year brought compounded challenges to our country. 
Like other States, we were not immune to the devastating 
effects of the COVID-19 pandemic. New Jersey is the most 
densely-populated State in the Nation, increasing the 
difficulty of containing a wide-spread respiratory virus. We 
took action necessary to slow the spread of COVID-19, bolster 
our hospital capabilities, and support our communities. As the 
fight continues, we remain appreciative for the Federal 
Government's support.
    Since the beginning of the pandemic we witnessed humanity 
and kindness in our society. Unfortunately, on January 6 there 
was also an unacceptable attack on our democracy and its 
institutions resulting in the culmination of an existing 
domestic threat that has been pervasive in our country for some 
time.
    New Jersey's analytical capabilities have focused on 
domestic extremism and the threat it presents. We were one of 
the first States in the Nation to sharpen focus on groups in 
the United States perpetuating extreme ideologies meant to 
motivate individuals to violent action. We observed that COVID-
19 restrictions, disinformation, and misinformation would 
converge with the 2020 Presidential election and mounting civil 
unrest Nation-wide. Specifically, we saw domestic extremists, 
foreign terrorist organizations, and nation-state threat actors 
attempting to leverage disinformation to hinder economic 
recovery and vaccination efforts, fuel anti-Government 
sentiment, and spread false narratives to sow discord 
throughout the United States.
    In response we increased our efforts, beginning in March 
2020, to combat these inaccuracies and provide up-to-date 
information and guidance to the public. In September we 
released the threat assessment detailing how the convergence of 
COVID-19 pandemic, civil unrest, and the Presidential election 
influenced the National threat landscape.
    This year brings with it an unfortunate milestone for our 
Nation, the 20th anniversary of September 11, 2001. For the 
past 20 years the Homeland Security paradigm has evolved 
through proactive strategy and reactive operations. The focus 
on public safety remains the same, but tactics and strategies 
change with new lessons learned or priorities identified.
    With the new administration we see policy adaptations that 
will affect State and local programs moving forward. Whereas as 
one administration may have stringent investment priorities for 
grants or risk-based jurisdictional awards, others broaden 
discretion and expand the risk-based jurisdictional grants.
    Ultimately, we recognize that of us in this discipline are 
working toward the same goals and objectives. We encourage the 
administration and DHS to sharpen its focus on risk-based 
decision making as program priorities are developed. Through 
risk-informed processes, collaboration with State Homeland 
Security leaders on future mandated programs and grant 
allocations, which allow for advance planning to occur with new 
priorities, rather than waiting on an annual notice of funding 
opportunity and having only the application submission window 
to impart Federal planning priorities.
    As a State with a high-risk urban area, we support the UASI 
program and welcome continued risk-informed decisions about 
funding allocations, priorities, and expansion of 
jurisdictions. We also appreciate the Federal Government's 
attempt to broaden resources provided into other programs, such 
as targeted violence prevention. Collaboration with the States 
will strengthen these programs and help inform where both 
financial and programmatic resources will be most efficiently 
invested.
    Last, we recognize the threats in the cyber realm are both 
an end-target and a vector through which other consequences may 
manifest. It is why our preparedness posture focuses on 
integrative threats with a goal of agnostic consequence 
management.
    With this approach in mind, we welcome conversations with 
DHS and about dedicated funding for prioritization about 
cybersecurity.
    In conclusion, the last year has highlighted many of the 
challenges for which our Nation's preparedness must improve. 
Whether focusing supply chain resiliency, the criticality of 
functions that drive our markets and economy, or the services 
that support our way of life, we must constantly adapt. We have 
spent the last 4 years trying to position New Jersey for these 
evolutions.
    In that vein, we applaud DHS's movement toward critical 
functions and away from a singular focus on infrastructure 
assets. We appreciate the sharpened focus on collective 
capabilities and priorities for the grant programs.
    Chairwoman Demings, Ranking Member Cammack, and 
distinguished Members of the subcommittee, including 
Congressman Payne and Congresswoman Watson Coleman, are great 
champions and partners. Thank you again for the opportunity to 
testify today. I look forward to your questions and yield back 
to the Chairman.
    [The prepared statement of Mr. Maples follows:]
                 Prepared Statement of Jared M. Maples
                       Wednesday, April 28, 2021
                              introduction
    Chairwoman Demings and Ranking Member Cammack, thank you for the 
opportunity to testify before you today. It is an honor to speak with 
you and share the work my office is doing to keep the residents, 
visitors, and institutions of New Jersey safe, especially with regard 
to homeland security grants and emergency preparedness.
    The New Jersey Office of Homeland Security and Preparedness 
(NJOHSP) is tasked with coordinating the State's counterterrorism, 
cybersecurity, and emergency preparedness efforts across all levels of 
government, law enforcement, nonprofit organizations, and the private 
sector. NJOHSP is charged with bolstering New Jersey's resources for 
counterterrorism, critical infrastructure protection, cybersecurity, 
preparedness, training, and Federal grants management.
    New Jersey faces complex security challenges driven by evolving 
threats, but we know those threats neither start nor end at our State 
borders. In New Jersey, we pride ourselves on the partnerships we have 
developed and strengthened with our Federal, State, and local partners 
to address our shared domestic security. We recognize that our work is 
never complete, and continual improvement is the only way to succeed at 
protecting New Jersey and the country. While we provide details on our 
on-going efforts, be mindful that we always seek to improve our 
strategic approach on homeland security and preparedness.
    I thank the committee for the opportunity to share our thoughts, 
discuss our challenges, and collaborate on future steps as we all work 
toward securing our homeland.
                             njohsp actions
    Last year brought compounded challenges to our country and each 
individual State. New Jersey is the most densely populated State in the 
Nation, increasing the difficulty of containing a wide-spread 
respiratory virus. We took actions necessary to slow the spread of 
COVID-19, bolster our hospital capabilities, and support our 
communities. Like other States, we were not immune to the devastating 
effects of the pandemic; however, the work and dedication of our 
medical professionals remains immeasurable.
    As the fight continues, we remain appreciative for the Federal 
Government's support. I encourage committee members to stay engaged 
with State governments to support short- and long-term response and 
recovery efforts focused on both medical response capabilities and 
economic recovery and growth.
    Since the beginning of the pandemic, we witnessed humanity and 
kindness in our society. Unfortunately, there was also an unacceptable 
attack on our democracy and its institutions. The events of January 6 
were the culmination of an existing domestic threat that has been 
pervasive in our county for some time. These criminal acts were 
attempts to stop the orderly business of our Government. New Jersey's 
analytical capabilities have focused on domestic extremism and the 
threat it presents. We were one of the first States in the Nation to 
sharpen focus on groups in the United States perpetuating extreme 
ideologies meant to motivate individuals to violent action. We have 
worked closely with partners within our State to prevent violence 
against individuals, groups, or government and community institutions. 
NJOHSP continuously assesses strategic and tactical trends concerning 
international and domestic extremist ideologies and organizations. We 
proactively collect, compile, and aggregate information to generate 
intelligence products, which are used to inform our law enforcement 
partners, the private sector, and the public on potential threats to 
the State, its residents, and visitors. Through these timely, accurate, 
relevant, and insightful assessments, we spearheaded efforts to remain 
ahead of the ever-changing threat landscape, especially as the COVID-19 
pandemic resulted in an environment unlike we have experienced before.
    NJOHSP observed that COVID-19 restrictions, disinformation, and 
misinformation would converge with the 2020 Presidential election and 
mounting civil unrest Nation-wide. Specifically, we saw domestic 
extremists, foreign terrorist organizations, and nation-state threat 
actors attempting to leverage disinformation to hinder economic 
recovery and vaccination efforts, fuel anti-Government sentiment, and 
spread false narratives to sow discord throughout the United States. In 
response, NJOHSP increased its efforts beginning in March 2020 to 
combat these inaccuracies and provide up-to-date knowledge and guidance 
from trusted authorities to help navigate the sheer volume of 
inaccurate information.
    In September, NJOHSP released its 2020-2021 Supplemental Threat 
Assessment, which detailed how the convergence of the COVID-19 
pandemic, civil unrest, and 2020 Presidential election influenced the 
National threat landscape. The analysis highlighted how evolving 
security threats would continue to impact New Jersey and the United 
States for the remainder of 2020 and through 2021. The following 
predictive analysis was forecasted:
  <bullet> The COVID-19 pandemic and polarizing sentiments surrounding 
        its impact would worsen the convergence of the 2020 
        Presidential election and mounting civil unrest across the 
        Nation.
  <bullet> Domestic extremists--primarily anarchist, anti-Government, 
        and racially motivated--would continue to manipulate National 
        incidents such as the COVID-19 pandemic, the 2020 Presidential 
        election, and civil unrest to further their agendas and remain 
        a threat.
  <bullet> Nation-state threat actors' expanding disinformation 
        campaigns that exploit COVID-19, election security, and civil 
        unrest would persist into 2021 to exacerbate domestic tensions 
        and challenge U.S. global credibility.
  <bullet> Foreign terrorist organizations would continue to exploit 
        COVID-19, Presidential election dissonance, and civil unrest to 
        create conflict, inspire extremists to radicalize, and provoke 
        home-grown violent extremists to conduct attacks.
    As we all continue to address threats within our borders, we should 
work collaboratively to address root causes, prevent violence of any 
kind, eschew political opportunism, and respect the foundational rights 
upon which this country is built. No matter the ideology of the threat 
actors, violence against any individual is both wrong and criminal. Our 
laws are set by legislative bodies, and we have tools to combat the 
type of actions witnessed on January 6 through the current statutory 
constructs. We will continue to use those tools to prevent violence and 
punish perpetrators while respecting the rights of every individual to 
express their beliefs, opinions, and speech in a peaceful manner.
    Not unlike years past, we have been faced with multiple diverse 
threat streams in this country. Recent natural and man-made incidents 
have shaped our actions this year and will continue to influence those 
to come. However, this year brings with it an unfortunate milestone for 
our Nation: The 20th anniversary of terrorist attacks on September 11, 
2001. For the past 20 years, the homeland security paradigm has evolved 
through proactive strategy and reactive regrets. The focus on public 
safety remains the same, but tactics and strategies change with new 
lessons learned or priorities identified. Through it all, some 
constants remain firmly in place, beginning with the obvious that 
neither man-made terrorist events nor natural disasters respect State 
borders. Collaboration is key and teamwork is foundational at all 
levels of government and with the business community and the public.
    In New Jersey, we are immensely proud of our recent work and 
continue to embrace a whole-of-community approach to security, focusing 
on our communities of faith and business. NJOHSP's Interfaith Advisory 
Council continues to be a model for the country in Government to faith-
based community engagement. We foster open dialog and promote honest 
conversations in a collaborative approach to security with more than 
3,500 members. We also recently launched the New Jersey Shield program, 
a collaborative effort with the New Jersey State Police and New 
Jersey's intelligence fusion center. This program will enhance public-
private partnerships by enabling true bilateral information and 
resource sharing. It connects our public safety personnel and private 
sector to each other and with the other global Shield jurisdictions in 
operation. It creates the mesh network of information and resources 
that has been a priority since that fateful day in September 2001.
    Our efforts in New Jersey continue to focus on suspicious activity 
reporting that remains vital to law enforcement efforts. The New Jersey 
Suspicious Activity Reporting System, or NJSARS, is part of an on-going 
effort in New Jersey to increase threat reporting. NJSARS shares 
information from suspicious activity reports (SARs) with law 
enforcement partners throughout the State. It is also linked to the 
FBI's National SAR system known as eGuardian, which partners with the 
Nation-wide SAR Initiative to form a single repository accessible to 
thousands of law enforcement personnel and analysts Nation-wide. We 
collect and analyze over 1,000 SARs every year and immediately share 
all leads with the FBI Joint Terrorism Task Force.
    Our relationship with the FBI remains strong, and its dedicated 
team of professionals continues to support and inform our efforts. 
NJOHSP has recently taken a leading role in New Jersey to combat 
increasing counterintelligence threats. Since 2018, we have partnered 
with the FBI in following its Joint Terrorism Task Force model to 
create the Nation's first Counterintelligence Joint Task Force. Members 
of this task force have worked diligently to mitigate threats presented 
by foreign state-sponsored actors seeking to conduct intelligence 
operations in New Jersey. Threat actors have attempted to unlawfully 
acquire intellectual property and access sensitive information in 
furtherance of their countries' foreign policy and economic goals. 
These illegal activities pose security challenges to New Jersey, with 
the potential to become significant National security threats.
    These and other programs have been foundational to the success we 
have realized in New Jersey. Their implementation is a direct result of 
the resources the Federal Government has provided. We remain 
appreciative for that assistance and collaboration as we move forward 
into new endeavors. Similarly, the Federal Government is changing some 
programmatic directions. With the new administration, we see the policy 
adaptations that will affect State and local programs moving forward. 
Whereas one administration may have stringent investment priorities for 
grants or fewer risk-based jurisdictional awards, others broaden 
discretion and expand the risk-based jurisdictional grants. Ultimately, 
we recognize that all of us in this discipline are working toward the 
same goals and objectives, just through different programmatic paths.
    We recognize the need for and support the identification of 
priorities within the homeland security grant program. While each State 
has its own needs, we understand the importance of enterprise 
capability building across the Nation. NJOHSP serves as New Jersey's 
State Administrative Agency to administer homeland security grant funds 
provided by the U.S. Department of Homeland Security (DHS) or the State 
of New Jersey. With this designation, NJOHSP is responsible for 
ensuring compliance with all the fiduciary and programmatic 
administration requirements of Federal and State homeland security 
grant programs designed to make New Jersey a safer place to live, 
visit, work, and worship. NJOHSP's administration and management of 
homeland security grant programs is built upon 3 foundational guiding 
principles: Inclusivity, transparency, and accountability. In an effort 
to establish clear guidelines for the allocation and distribution of 
discretionary funding, we follow 5 basic criteria when managing and 
administering Federal and State homeland security and preparedness 
grant funding:
  <bullet> Follow a risk-based system--risk being defined as a function 
        of threat, vulnerability, and consequence assessment.
  <bullet> Significantly benefit New Jersey's emergency response 
        community.
  <bullet> Link to our State preparedness goals to prevent terrorist 
        attacks, protect critical infrastructure, and reduce 
        vulnerability to terrorism, mitigate terrorist attacks, respond 
        to incidents of terrorism quickly and effectively, and recover 
        from terrorist attacks in order to restore quality of life.
  <bullet> Support the National and State priorities and core 
        capabilities; e.g., interoperability, regionalization, and 
        information sharing.
  <bullet> Avoid duplication where wasteful.
    To attain a more quantitative understanding of the risks that New 
Jersey faces and to better inform our investments of Federal and State 
homeland security funds for many of our strategic funding, planning, 
and preparedness programs, we divided the State into 4 planning and 
funding regions: Urban Areas Security Initiative Region (UASI), 
Northwest Region, Shore Region, and Delaware River Region. This 
regionalization approach facilitates a ``bottom-up'' planning 
framework, which informs a State-wide preparedness road map. At the 
State level, our Domestic Security Preparedness Task Force addresses 
both regional and State-wide preparedness capability initiatives.
    While achieving the foundational guiding principles, several 
tangible outcomes have resulted that go well beyond grant management 
activities. None is greater than the profound sense of collaboration 
between both multiple levels of government (local, county, State, 
Federal) and various first responder communities (fire, emergency 
medical, law enforcement, emergency management services, etc.), as well 
as the build-out of public and private partnerships. Further, the 
Federal and State nonprofit security grant programs have brought 
greater understanding and collaboration between law enforcement 
professionals and houses of worship that results in greater detailed 
mitigation efforts against terrorism and acts of violence. Incredibly, 
it is the grant funding that brings together the ``whole community'' to 
address on-going and emergent threats associated with terrorism.
    To date, NJOHSP has administered over $1.3 billion of grant funding 
and currently is responsible for over $175 million in open Federal and 
State homeland security and preparedness grant funds. In 2018, a new 
State-funded grant program, the Nonprofit Security Grant Pilot Program, 
was established to assist eligible non-profit organizations in 
enhancing physical security with the funding of security personnel and 
target-hardening equipment. This program continues to grow in terms of 
interest and funding amounts. There are efforts to make this program 
permanent by way of State legislative enactment.
    We encourage the administration and DHS to sharpen its focus on 
risk-based decision making as program priorities are developed. Through 
risk-informed processes, we also encourage DHS to collaborate with 
State homeland security leaders on future mandated programs and grant 
allocations. This process would allow for advanced planning to occur 
with new priorities, rather than awaiting an annual notice of funding 
opportunity and having only the application submission window to impart 
Federal planning priorities.
    As a State with a high-risk urban area, we continue our support of 
the UASI program. Here, too, we welcome continued risk-informed 
decisions about funding allocations, priorities, and expansion of 
jurisdictions. While the homeland security grant program has been with 
us since the beginning, we appreciate the Federal Government's attempts 
to broaden resources provided into other programs such as targeted 
violence prevention. Again, collaboration with the States will 
strengthen these programs and help inform where both financial and 
programmatic resources would be most efficiently invested.
    We encourage DHS to harmonize the program with all of its 
components as new programs are developed. There remain instances where 
some components of DHS may not be engrained with the awareness, 
knowledge, or rationale of a new program, making full collaboration 
within the States difficult. This is most important in those areas 
where one component may be developing the policy of a new program while 
another component is developing the administrative necessities of a 
related grant program. We understand the difficulties in creating 
National programs and appreciate DHS's continued work and perseverance.
    One noticeable area of continued focus is cybersecurity. NJOHSP, 
through its New Jersey Cybersecurity and Communications Integration 
Cell (NJCCIC), is charged with leading and coordinating New Jersey's 
cybersecurity efforts while building resiliency to cyber threats 
throughout the State. We do so by focusing on the confluence of 
physical and cyber risk, using enterprise risk management techniques to 
drive our decision making. We focus on information sharing with both 
the public and private sectors, and we oversee the State government 
Garden State Network to ensure that critical Government functions 
continue uninterrupted.
    Cybersecurity challenges are addressed with a wide-area lens in New 
Jersey. We recognize that threats in the cyber realm are both an end 
target and a vector through which other consequences may manifest. 
Whether the support of a criminal enterprise, the malicious destruction 
of control mechanisms, or the interruption of critical services, 
cybersecurity consequences can affect a multitude of unrelated targets. 
It is why our preparedness posture focuses on integrated threats with a 
goal of agnostic consequence management. No matter what caused the 
issue, we strive to develop capabilities to deal with it. It is the 
quintessential progression through prevention, protection, response, 
and recovery and the basis upon which we rest our strategy.
    With this approach in mind, we welcome conversations with DHS about 
dedicated funding or prioritization for cybersecurity. Unlike the 
physical realm, cybersecurity threats, vulnerabilities, and 
consequences change the result of the risk equation. In doing so, 
focused spending on cybersecurity will require a collaborative approach 
among States and the Federal Government to ensure that risk is properly 
identified and prioritized in new programs.
                               conclusion
    As we all work on today's challenges, we constantly remain aware of 
what tomorrow may bring. Looking to the future, we must ensure that we 
are not preparing only for the most recent incident. The last year has 
highlighted many of the challenges for which our Nation's preparedness 
could improve. Whether focusing on supply chain resiliency, the 
criticality of functions that drive our markets and economy, or the 
services that support our way of life, we must constantly adapt. In New 
Jersey, we have spent the last 4 years trying to position for these 
evolutions. In that vein, we applaud DHS's movement toward critical 
functions and away from a singular focus on infrastructure assets. We 
appreciate DHS's sharpened focus on collective capabilities and 
priorities for the grant programs.
    We will remain dedicated to further collaboration with our partners 
at the local, county, State, and Federal levels to work on risk 
mitigation efforts for both the short and long term. NJOHSP relies on 
partner engagement, and relationship building is essential to our core 
goals. Through the development of working groups, robust information 
sharing, increased interagency interactions, and public awareness 
campaigns, NJOHSP has remained successful in meeting its mission. 
NJOHSP will continue to generate accurate assessments of National 
security threats both at home and abroad and investigate every 
potential threat that could impact the communities in New Jersey.
    Chairwoman Demings, Ranking Member Cammack, and distinguished 
Members of the subcommittee, I thank you again for the opportunity to 
testify today.
    I look forward to your questions and yield back to the Chairwoman.

    Chairwoman Demings. Thank you so much, Mr. Maples.
    The Chair now recognizes the Orlando Police Chief, Chief 
Rolon, to summarize his statement for 5 minutes.

  STATEMENT OF ORLANDO ROLON, CHIEF OF POLICE, ORLANDO POLICE 
                           DEPARTMENT

    Chief Rolon. Thank you, Chairwoman Demings, I am happy to 
participate in today's hearing.
    Can you hear me?
    Chairwoman Demings. Chief, you are a little in and out, but 
we can hear you now.
    Chief Rolon. OK. It is an honor to appear before the panel 
led by 2 representatives from the State of Florida, Chairwoman 
Demings, who is a friend and former chief of police here at the 
Department where I have the privilege to lead, and the Ranking 
Member Cammack, who knows first-hand the sacrifices first 
responders make.
    I appear before you today as the chief of the Orlando 
Police Department. It is also a privilege to testify on behalf 
of the Major City Chiefs Association.
    Local law enforcement has been the front line, whether it 
be responding to a terrorist attack, natural disaster, or the 
global pandemic. FEMA preparedness grants, especially UASI, and 
State Homeland Security Grant Programs provide critical 
resources that bolstered law enforcement's ability to prevent 
and respond to these threats. It is worth noting that nearly 
every UASI-eligible jurisdiction is a member of the MCCA and 
robust stakeholder engagements is a must. Unfortunately, that 
type of engagement isn't the standard or formalized. In order 
to ensure preparedness grants are meeting the needs of grant 
recipients, FEMA should solicit the local law enforcement 
input.
    As you are likely aware, FEMA considered making several 
changes to the fiscal year 2021 UASI and State Homeland 
Security Grants, changes related to risk determination with 
nearly double the number of jurisdictions eligible for UASI 
funding, or FEMA to spread already limited funds. Another 
proposed change would have made UASI funding competitive with 
results in funding inconsistencies and favor jurisdictions that 
can write the best applications. Funding should be allocated 
based on risk and not the quality of the grant writers.
    I understand FEMA is still considering some of these 
changes. FEMA now also requires grantees dedicate 30 percent of 
their funding to National priority areas. This is a 10 percent 
increase from last year. While National priority areas can help 
ensure limited grant funding is also used to address the most 
significant threats, they must be developed in consultation 
with key stakeholders to ensure they accurately reflect 
threats. Again, this is not always the case.
    For example, FEMA's consultation with MCCA members while 
developing the National priority areas in the proposed changes 
to the funding formula was limited, at best. I understand that 
Secretary Mayorkas recently instructed FEMA to host a series of 
stakeholder listening sessions and the MCCA looks forward to 
collaborating on future grant guidance.
    UASI and State Homeland Security grant recipients often 
engage in years-long planning work. Predictability is key. 
There needs to be more transparency with respect to the risk 
validation process that is used to determine the grant 
allocations. While grantees are allowed to review and comment 
on the risk profile, they are unable to see the specific--the 
data that was used to calculate the risk.
    In light of these challenges, FEMA should let personnel 
from each jurisdiction with the appropriate clearances see the 
specific data that was used to formulate the risk profile. It 
is also important to ensure that FEMA's risk methodology 
captures all the relevant factors that contribute to a 
grantee's risk. For example, the sheer number of tourists who 
visit Orlando, coupled with the fact that many of them are 
visiting soft targets, like our famous theme parks, represents 
a substantial risk that should be accounted for. Until recently 
tourism-related metrics, such as daily visitors and special 
events, were not included. FEMA must continue to review and 
update its risk formulas and properly address the needs of the 
jurisdictions.
    Although today's hearings have focused on FEMA grants, a 
conversation of preparedness would not be complete without 
touching on some recent challenges. Over the past decade local 
law enforcement has become a public target for cyber attacks. 
We are lucky in Orlando to have a great chief information 
officer, Rosa Akhtarkhavari, that understands the seriousness 
of these threats and has taken steps to secure our city's 
systems. This is not always the case, as we have seen 
ransomware attacks in Atlanta and Baltimore.
    Orlando knows just how dangerous threats like the massive 
tourism can be and the Orlando Department has to be able to 
apply many of the lessons learned from the Pulse Nightclub 
tragedy to mitigate other threats and prevent violence. The 
MCCA has committed to continue to serve as a conduit between 
our membership, the Federal Government, and other key 
stakeholders to help build those relationships.
    I would like to close by thanking the committee for its 
continued support of FEMA preparedness grants and the MCCA 
looks forward to continue to work closely with all of you to 
achieve our shared goals here in our communities. I look 
forward to any questions the committee may have.
    Thank you.
    [The prepared statement of Chief Rolon follows:]
                  Prepared Statement of Orlando Rolon
                             April 28, 2021
    Chairwoman Demings . . . Ranking Member Cammack . . . and 
distinguished Members of the subcommittee: Thank you for the 
opportunity to participate in today's hearing. I appear before you 
today as the chief of police in Orlando, Florida. It is also my 
privilege to testify on behalf of the Major Cities Chiefs Association 
(MCCA), a professional association of police chiefs and sheriffs 
representing the largest cities in the United States and Canada, of 
which I currently serve as a member of the executive board. It is 
particularly special to testify in front of a panel led by two 
Congresswomen from my home State of Florida. It is also an honor to 
appear before Chairwoman Demings, who is the former chief of the police 
department I am now privileged to lead.
    Local law enforcement is on the front lines of responding to any 
emergency, whether it be a terrorist attack, natural disaster, or 
global pandemic. FEMA preparedness grants are critical resources that 
bolster law enforcement's ability to prevent and respond to terrorist 
attacks and other associated threats. The Homeland Security Grant 
Program (HSGP), which includes the Urban Area Security Initiative 
(UASI) and State Homeland Security Grant Program (SHSP), are 
particularly valuable for local law enforcement.
    These programs have only grown in importance as the threat 
environment facing the homeland becomes more complex, especially as 
local law enforcement is consistently asked to take on more 
responsibilities and stretch limited resources further. My testimony 
will provide a local law enforcement perspective on these critical 
programs and offer a few suggestions on how they may be improved. More 
specifically, I will touch on recent changes that have been proposed to 
these grant programs, outline ways to enhance the predictability and 
integrity of the funding formulas, and discuss some of the challenges 
law enforcement has faced over the past year.
   proposed changes to fiscal year 2021 notice of funding opportunity
    As you likely are aware, in advance of the release of the fiscal 
year 2021 Notice of Funding Opportunity (NOFO), FEMA considered making 
a few significant changes to UASI and the State Homeland Security Grant 
Program. These changes would have impacted how funding gets distributed 
and the amount of funding that some jurisdictions receive. While not 
implemented in fiscal year 2021, I understand that some of the changes 
are still being considered for inclusion in future Notices of Fundings 
Opportunities. The MCCA has voiced concerns about some of the proposed 
changes and calls on FEMA and Congress to work closely with 
stakeholders throughout the entire process to ensure potential changes 
to these grant programs are carefully vetted and considered.
Changes to Risk Calculation Formula
    One proposed change would have altered how FEMA calculates risk. 
FEMA uses 3 components--threat, vulnerability, and consequence--to 
determine risk. Currently, consequence is weighted more heavily than 
threat or vulnerability. Under the proposed change, each component 
would have an equal weight.
    By statute, UASI funding is limited to the urban areas that 
comprise 85 percent of the National risk. Since the input for 
consequence in FEMA's risk methodology is driven primarily by a 
jurisdiction's population and population density, this risk is 
currently consolidated in roughly 30 cities. By weighting consequence 
equal to threat and vulnerability in the formula, the number of cities 
that comprise 85 percent of the National risk will more than double. 
This will force FEMA to spread already finite funds more thinly, 
thereby impacting the program's effectiveness. Should this change be 
included in future Notices of Funding Opportunities, Congress must 
ensure there is a requisite increase in appropriations for UASI.
Competitive Funding
    Another proposed change would have made UASI funding 100 percent 
competitive. Currently, UASI jurisdictions receive a targeted funding 
range based on their risk. As part of the proposed change, UASI funding 
would be split into 1 of 3 buckets, and cities would compete for 
funding with the other cities in their same bucket.
    There are several challenges associated with making UASI funding 
fully competitive. First, it will likely result in funding 
inconsistencies and complicate preparedness planning since it will be 
nearly impossible for cities to predict how much funding they'll 
receive in a given year. This challenge will only be exacerbated during 
years that cities move into a new bucket. Second, having the cities 
with the most considerable amount of risk compete against each other 
will leave gaping holes in risk mitigation for some of the most 
attractive targets for terrorism throughout the United States. Finally, 
a competitive UASI program could very well result in a situation where 
funding is skewed toward those cities that can write the ``best'' grant 
application. UASI is designed to enhance preparedness, and awards 
should be made based on applicants' risk, not the quality of their 
grant writers.
                     dedicated funding requirements
    To receive their full allocation of UASI and State Homeland 
Security Grant Program funds, grantees must dedicate a certain 
percentage of funds to projects that meet the criteria outlined in 
statute or the grant program's Notice of Funding Opportunity. Congress 
and FEMA must ensure that these requirements align with the threats 
facing grant recipients. The percentage of a recipient's award that 
must be dedicated to these obligations has continued to grow year after 
year. If this pattern continues, Congress and FEMA should also consider 
establishing separate funding streams for specific activities to help 
ensure grantees have sufficient funding to invest in projects to 
address risks outside of the program-mandated priorities.
Law Enforcement Terrorism Prevention Activities Threshold
    Following the 9/11 attacks, Congress created the Law Enforcement 
Terrorism Prevention Program to help build State, local, and Tribal law 
enforcement's capabilities to respond to terrorist attacks. This 
program has been steadily weakened over the years, and in 2007, it 
stopped receiving funding as a stand-alone grant program. It was 
replaced with Law Enforcement Terrorism Prevention Activities (LETPA), 
and States are now required to use 25 percent of all UASI and State 
Homeland Security Grant Program funds for Law Enforcement Terrorism 
Prevention Activities.
    Despite the program being reduced to what is essentially a 
bureaucratic requirement for States to receive FEMA funding, the 
required spending on Law Enforcement Terrorism Prevention Activities 
still provides value. For example, one MCCA member uses this specific 
carve-out to help fund its fusion center and Chemical Biological 
Radiological Nuclear Explosive (CBRNE) teams.
    There have been recent efforts by some to remove or further reduce 
the Law Enforcement Terrorism Prevention Activities requirement. If 
successful, this would significantly impact the amount of Federal 
funding dedicated to local law enforcement's unique role in preventing 
terrorist attacks. This undoubtedly would be detrimental to homeland 
security overall, especially in the current budget environment where 
law enforcement is continually asked to respond to new threats and do 
more with fewer resources. If Congress is not willing to restore the 
existing Law Enforcement Terrorism Prevention Activities threshold to 
an independently funded program, it must, at minimum, ensure the 
current requirement in statute is not weakened further.
National Priority Areas
    Beginning in fiscal year 2020, FEMA began to require that grant 
recipients use specific percentages of UASI and State Homeland Security 
Grant Program funds to address certain National Priority Areas. In 
fiscal year 2021, grantees will be required to spend 30 percent of 
their funds on these National Priorities Areas, a 10 percent increase 
over the fiscal year 2020 requirement. Notably, funding projects in 
these areas can also be used to meet the Law Enforcement Terrorism 
Prevention Activities threshold, potentially limiting the ability of 
law enforcement to utilize the Law Enforcement Terrorism Prevention 
Activities set aside for terrorism prevention activities that fall 
outside of these priorities. While the establishment of National 
Priorities Areas can undoubtedly help ensure that limited grant funding 
is used to help address the most significant threats facing the 
country, these priorities must be developed in consultation with key 
stakeholders to ensure they reflect the needs of UASI and State 
Homeland Security Grant Program grantees.
Direct Funding Streams for Fusion Centers
    Created initially to break down silos of intelligence among partner 
agencies and enhance information sharing, the fusion center network has 
taken on a primary role in intelligence and information sharing at the 
local, State, and Federal levels. As the threats that local law 
enforcement is asked to mitigate metastasize, the need for robust 
information sharing has only increased. Fusion centers play a critical 
role in ensuring law enforcement personnel across the Nation, at all 
levels of government, can access the information they need to keep our 
communities safe.
    Despite fusion center's critical role in the homeland security 
enterprise, there are currently no direct funding streams to maintain 
the network of fusion centers. While Homeland Security Grant Program 
funding can be used for this purpose, it does not explicitly carve out 
designated amounts. As a result, fusion centers may need to compete 
with other priorities and projects for grant dollars. This can produce 
uncertainty and potentially put vital programs and capabilities at 
risk. While FEMA recognizes the important role fusion centers play and 
preparedness grants have prioritized fusion centers for several years, 
Congress should consider establishing a separate funding stream for 
fusion centers.
                      predictability and integrity
    It is not uncommon for projects funded by FEMA preparedness grants 
to be multi-year efforts. Grantees often engage in years-long planning 
processes to ensure they can use grant funding to address threats and 
priorities in their jurisdiction in a timely manner. For these efforts 
to be successful, there must be predictability and integrity in the 
risk calculation and funding allocation process FEMA uses each year.
Engagement with Stakeholders
    Strong partnerships across all levels of government are critical if 
preparedness grants are to be as effective as possible. FEMA is an 
essential partner, and improvements can be made concerning stakeholder 
engagement. More specifically, there needs to be a more formal process 
for soliciting local law enforcement input on preparedness grants. For 
example, FEMA's consultation with MCCA members while developing the 
National Priorities Area included in the fiscal year 2020 Notice of 
Funding Opportunity was limited. The engagement regarding the proposed 
changes to the fiscal year 2021 Notice of Funding Opportunity was also 
haphazard. This is concerning given that nearly every UASI jurisdiction 
is a MCCA member.
    Providing local law enforcement and other key stakeholders with the 
opportunity to ensure their voices are reflected in the policy-making 
process will help ensure transparency in grant directives and guidance. 
Working with stakeholders ahead of time will also help mitigate 
situations where a FEMA policy change forces grantees to make last-
minute pivots in their planning processes, which can inhibit their 
ability to effectively allocate the resources these grants provide.
    The MCCA was pleased to hear that Secretary Mayorkas recently 
instructed FEMA to host a series of listening sessions and other 
engagement events with Homeland Security Grant Program stakeholders, 
including law enforcement associations like the MCCA. The MCCA looks 
forward to collaborating with FEMA to provide our perspective and input 
on future grant guidance.
Transparency in Risk Profile Calculation
    There is a need to inject additional transparency into the risk 
validation process that is used to determine funding allocations for 
UASI and the State Homeland Security Grant Program. While States, 
territories, and UASI-eligible Metropolitan Statistical Areas (MSA) are 
allowed to review and comment on their risk profiles, there is a lack 
of detailed information. For example, while the risk profile explains 
how each element of the profile is calculated and notes the sources 
used, grantees are unable to see the specific data utilized. This makes 
it challenging to provide substantive feedback, confirm the 
calculations are accurate, or raise other concerns. For example, after 
a historical data call, one MCCA member learned that several of their 
critical infrastructure assets had been omitted, resulting in the 
Metropolitan Statistical Area's risk being miscalculated.
    In light of these challenges, FEMA should let personnel from each 
jurisdiction, with the appropriate clearances, see the specific data 
used to formulate the risk profile. This will help increase 
transparency, further FEMA and stakeholder engagement, provide another 
opportunity for State and local threat information to be incorporated, 
and ensure the risk to communities across the Nation are being 
calculated accurately.
Accounting for Tourism in the Risk Formula
    Orlando and several other MCCA members that receive UASI grants are 
unique in that the number of annual visitors is significantly greater 
than the local population. For example, in 2018, Orlando was one of 
America's most-visited destinations, welcoming 75 million visitors.\1\ 
The U.S. Census Bureau estimated that the population of the entire 
Orlando-Kissimmee-Sanford Metropolitan Statistical Area in 2018 was 
only 2.6 million.\2\
---------------------------------------------------------------------------
    \1\ ``Orlando Announces Record 75 Million Visitors, Solidifies 
Ranking as No. 1 U.S. Travel Destination,'' Visit Orlando, May 9, 2019. 
https://www.visitorlando.com/media/press-releases/post/orlando-
announces-record-75-million-visitors-solidifies-ranking-as-no-1-u-s-
travel-destination/.
    \2\ ``Annual Estimates of the Resident Population: April 1, 2010 to 
July 1, 2019,'' United States Census Bureau. https://www.census.gov/
data/tables/time-series/demo/popest/2010's-total-metro-and-micro-
statistical-areas.html.
---------------------------------------------------------------------------
    The sheer number of tourists coupled with the fact that many of 
them are visiting soft targets--such as Orlando's many theme parks--
represents a substantial risk that should be accounted for in FEMA's 
risk methodology. Until recently, tourism-related metrics, such as 
special events and daily visitors, were not included. Once these 
factors were incorporated, several prominent tourist destinations saw 
significant increases in their UASI funding allocations. FEMA must 
continue to review and update its risk formula as necessary to ensure 
it properly weights the unique needs of tourist destinations.
    It is also important to ensure the risk methodology is resilient 
and flexible enough to account for challenges related to being a 
tourist destination. This point has been underscored by the COVID-19 
pandemic, which has significantly impacted tourism and the number of 
special events held throughout the country. Jurisdictions who rely on 
such factors to ensure their risk is accurately represented should not 
face the prospect of decreased funding due to acts of God or other 
incidents that are outside of human control and impossible to predict. 
The MCCA understands that FEMA made slight changes to its fiscal year 
2021 risk methodology to account for the impacts of COVID-19 and 
encourages FEMA to continue to exercise discretion, as necessary, to 
account for the effects of future incidents and crises.
Timely Disbursement of Funding
    Once a project using UASI and State Homeland Security Grant Program 
funding is approved, it is important that FEMA disburses the necessary 
resources expeditiously. Several MCCA members have expressed concern 
with navigating FEMA's bureaucracy and getting the funding released for 
some projects quickly. Things become even more complicated when 
grantees are trying to fund a project that requires additional levels 
of approval from FEMA, such as the acquisition of controlled equipment. 
Failure to disburse funds in a timely manner is not only detrimental to 
homeland security as it inhibits recipients from mitigating risks as 
efficiently as possible, but it also can cause challenges as grantees 
work to coordinate project delivery with other public safety entities, 
vendors, and other stakeholders.
                   additional preparedness challenges
    Although today's hearing is focused on FEMA's grant programs, a 
conversation on preparedness would not be complete without mentioning 
some of the other challenges facing local law enforcement. A global 
pandemic, a National conversation on policing, wide-spread civil 
unrest, and the emergence of new threats have created one of the most 
challenging environments for local law enforcement in recent memory. I 
am proud of how the brave members of local law enforcement rise to meet 
these challenges every day to keep our communities safe.
COVID-19
    Local law enforcement has remained on the front lines throughout 
the COVID-19 pandemic. Especially early on in the pandemic, MCCA 
members had to make drastic changes to their operations in order to 
continue offering essential services and ensuring public safety.
    Furthermore, nearly every major city in the country experienced 
upticks in violent crime throughout the pandemic. Local law enforcement 
continued to address these calls for service, despite at times having 
large segments of the workforce quarantined. Finally, the strain COVID-
19 placed on local budgets will undoubtedly impact local law 
enforcement well beyond the end of the pandemic. Federal assistance, 
provided through legislation such as the CARES Act and the American 
Rescue Plan, has been instrumental as communities across the country 
continue to respond to and recover from this crisis.
Cybersecurity
    Over the past decade, law enforcement agencies have experienced an 
increase in cyber attacks by both criminal entities and 
``hacktivists.'' Considering their prominent public role and the 
sensitive information on their systems and networks, police 
departments, including many MCCA members, have become popular targets 
for ransomware, denial-of-service, and doxing attacks. As law 
enforcement relies more and more on technology systems to carry out its 
mission, these attacks can have catastrophic effects. For example, a 
ransomware attack could deny police officers access to critical records 
and investigative files, and denial-of-service attacks could take 9-1-1 
dispatch centers off-line, making it more difficult to get help to 
citizens in need. During the civil unrest that occurred throughout the 
summer of 2020, many MCCA members also struggled with having personnel 
and their families subjected to harassment and other threats to their 
safety as a result of being doxed.
    Law enforcement agencies can be especially vulnerable if their 
technology systems are outdated, or they do not adequately train their 
personnel to mitigate cyber threats. These challenges can be 
exacerbated by police departments' connections with larger municipal 
networks, which may be less secure and provide an alternative vector 
for attacks. We are lucky in Orlando to have a great chief information 
officer that understands the seriousness of these threats and has taken 
numerous steps to secure our city's systems from infiltration.
    Congress can take a few steps to help local governments, including 
local law enforcement agencies, better mitigate cyber threats. First, 
Congress must ensure the grant programs that help build local cyber 
capacity, such as the Homeland Security Grant Program, are fully 
funded. Congress should also continue to ensure agencies such as DHS's 
Cybersecurity and Infrastructure Security Agency (CISA) have the 
authorities and resources needed to continue programs and efforts 
designed to help law enforcement prevent and respond to cyber attacks.
Domestic Violent Extremists
    The recent rise in domestic violent extremism (DVE) is another 
threat that local law enforcement is currently working diligently to 
address. Local law enforcement, including MCCA members, is no stranger 
to addressing extremist threats, having been a key stakeholder in 
responding to the rise in home-grown violent extremism just a few years 
ago. Unfortunately, Orlando knows just how dangerous extremism can be 
and how extremist violence can devastate a community. The Orlando 
Police Department has been able to apply many of the lessons learned 
from the Pulse Nightclub tragedy to mitigate other threats and prevent 
extremist violence.
    The importance of developing strong relationships between Federal, 
State, and local law enforcement authorities cannot be emphasized 
enough. These relationships often manifest themselves in joint 
investigations, increased information sharing, and other initiatives 
that are critical in addressing threats such as domestic violent 
extremism effectively. Through its oversight efforts, Congress must 
continue to ensure Federal agencies work closely with their local 
counterparts and that mechanisms for promoting this collaboration, such 
as fusion centers, are adequately funded. The MCCA also commits to 
continue to serve as a conduit between our membership, the Federal 
Government, and other key stakeholders to help build those 
relationships.
    Congress must also ensure that law enforcement retains access to 
the tools and technology that assist with investigations, including 
domestic violent extremism investigations, such as facial recognition. 
Facial recognition is a valuable tool that helps generate leads and 
makes law enforcement operations more effective and efficient. Congress 
must also address the threat posed by the ability of extremists and 
other violent criminals to ``go dark.'' These challenges have 
frustrated on-going investigations and hindered law enforcement's 
ability to detect additional extremist activity and combat everyday 
violent crime.
                               conclusion
    FEMA's grant programs undoubtedly provide critical resources and 
help ensure that local law enforcement is prepared to prevent and 
mitigate the variety of threats that fall under our purview. On behalf 
of the Major Cities Chiefs Association and the Orlando Police 
Department, I'd like to thank the committee for both its support of the 
Homeland Security Grant Program, including UASI, and continued 
oversight efforts to ensure the program meets the needs of local law 
enforcement. I also must thank the committee for the support it has 
shown for the brave members of local law enforcement during one of the 
most challenging years in the history of our noble profession. The MCCA 
looks forward to continuing to work closely with all of you to achieve 
our shared goal of securing our communities from all threats.
    I look forward to answering any questions the committee may have.

    Chairwoman Demings. Thank you so much, Chief Rolon.
    The Chair now recognizes Chief Altman for 5 minutes.
    Chief.

  STATEMENT OF ROBERT V. ALTMAN, BATTALION CHIEF, OCALA FIRE 
                             RESCUE

    Chief Altman. Good afternoon, Congresswoman Demings, 
Ranking Member Cammack, and Chairman of the committee, Mr. 
Thompson.
    I am Robert Altman. Again, I am the battalion chief with 
Ocala Fire Rescue located in North Central Florida. I am 
pleased to testify before your subcommittee today to discuss 
the importance of the Assistance to Firefighters Grant program 
known as AFG.
    I was recently asked by Congresswoman Cammack from the 
Third District to give some testimony on the Assistance to 
Firefighter Grants program from my own first-hand knowledge. I 
also have been on the Assistance to Firefighter Grants program, 
selected by the International Association of Firefighters for 
FEMA.
    Ocala Fire Rescue, the Department I work at, operates out 
of 7 stations providing emergency services to an estimated 
61,000 full-time residents and approximately 156,000 people on 
an average weekday. The Department covers just over 47 square 
miles and has an automatic aid agreement with Marion County 
Fire Rescue to assist with emergency coverage for 1,663 square 
miles and over 365,000 residents.
    Ocala Fire Rescue has been the beneficiary of several AFG 
awards in the past, including 1 this previous year. The 
Department was awarded a grant for hearing protection 
previously for apparatus, 2 grants roughly 10 years apart for 
self-contained breathing apparatus, known as SCBAs. We are 
awaiting the arrival of the newly-awarded SCBAs currently.
    Fire Departments like Ocala depend on the funds to make 
major purchases that were either not budgeted for or the 
current financial climate could not cover the expense.
    Ocala Fire Rescue, like many other departments across our 
Nation, has been struggling to recover from the financial 
downturn our Nation previously went through. The COVID-19 
pandemic has put new strains on departments that have not fully 
recovered. Bills like the current Senate Bill 426; Firefighter 
Cancer bill, will also put a financial strain on fire 
departments across Florida. While joining 44 other States in 
our country to improve firefighter safety, it has a cost to the 
cities and counties and departments.
    Departments are trying to improve the personal protective 
equipment (PPE) of their firefighters. The new gear that is 
recommended to protect firefighters is costly. Some departments 
just do not have the resources or the budget to cover these 
items. This is where the AFG program helps these departments, 
not only cover the recommendations and meet the current 
National Fire Protection Standards, but also the mission of the 
fire departments, to protect those that protect us, our 
firefighters.
    Florida firefighters are asked to perform in all types of 
emergencies, cover all types of economic development, from 
rural to urban terrain and everything in between. We respond to 
all natural disasters, hurricanes, hazardous materials 
incidents, technical rescues, fires, and medical emergencies, 
and any other situation that the public can't handle. A perfect 
example of the need for AFG is currently the COVID-19 pandemic 
we are all working through. Without the Federal aid that was 
offered last year by AFG, many departments just could not meet 
the communities' needs. Services would have been cut short to 
the people that needed it the most.
    Departments across the Nation, like my own, are currently 
being asked to submit flat budgets or decrease their current 
budget proposals due to the cost the pandemic has put on their 
departments and communities. Funding that was budgeted for 
other critical equipment has spent on COVID-19 response. With 
this unexpected pandemic and its costs, departments still need 
to respond to every other emergency that is out there. They 
still need to keep up on schedule with PPE purchases and other 
essential equipment that fire departments need to operate and 
serve their citizens.
    I have read numerous applications from departments all 
across our Nation, large and small, all with the same missions 
and goals. The AFG not only help those departments protect the 
lives and safety of their citizens, it also helps them meet 
their goals of firefighter safety. Without the AFG many 
departments would not be able to provide adequate PPE to its 
firefighters to do basic fundamentals of the fire service, 
which is fight fire. I have read too many applications where 
departments do not have enough bunker gear to outfit their 
firefighters so that each firefighter has his own individual 
turnout gear. Fire departments are driving 30-year-old 
emergency vehicles as front-line apparatus. Departments asking 
for exhaust scavenging systems for their apparatus, so 
firefighters and the public do not have to breathe cancer-
causing fumes from emergency vehicles.
    The other side of the AFG is that departments that are able 
to maintain and secure awards can then use other funds to 
advance life safety projects that the fire service offers to 
its citizens. Departments like mine can offer smoke detector 
programs, hands-on CPR to schools and businesses, water safety 
programs, and community paramedic programs, just to name a few 
that we offer.
    Ocala Fire Rescue is also part of USAR Task Force 8, which 
combines 3 local departments, Ocala, Gainesville, and Marion 
County. We have 28 members from our department on the regional 
team. We have been able to train and receive the most advanced 
technical equipment through the AFG awards. We have responded 
to many emergencies throughout Florida and the southeast region 
of the USA. When a department receives a grant from AFG, not 
only does the award help their department, it helps neighboring 
departments by providing more resources and more up-to-date 
resources for those departments.
    In closing, being a recipient of AFG grants and as a 
reviewer, I can attest that the need to continue, and when 
possible, increase the allotted budget for AFG is greatly 
needed. Without these funds many departments would be cutting 
services, laying off firefighters and asking firefighters to 
put their lives at greater risk by performing their job without 
adequate personal protective equipment or inadequate 
firefighting equipment. When that disaster strikes, local fire 
departments will be the first to arrive. They need the 
equipment to do their jobs safely. I am glad that the Federal 
Government recognizes the need to assist in funding these 
grants. These grants help local departments meet their basic 
needs and improve their capabilities to respond to all hazards.
    I thank you for the opportunity today to testify about my 
experience with the Assistance to Firefighters Grant Program. I 
am happy to answer any questions you may have.
    [The prepared statement of Chief Altman follows:]
                 Prepared Statement of Robert V. Altman
                             April 28, 2021
    Good afternoon Congresswoman Demings and the Members of the 
subcommittee. I am Robert Altman, a current battalion chief with Ocala 
Fire Rescue in Ocala Florida, located in North Central Florida. I am 
pleased to testify before your subcommittee today to discuss the 
importance of the Assistance to Firefighters Grant program known as 
AFG. I was recently asked by Congresswoman Cammack from Florida's 3d 
Congressional District to give some testimony on the Assistance to 
Firefighter Grants program from my own first-hand knowledge. I also 
have been selected to review AFG grants by The International 
Association of Firefighters for FEMA.
    Ocala Fire Rescue operates out of 7 fire stations providing 
emergency services to estimated 61,000 full-time residents and 
approximately 156,000 people on an average week day. The Department 
covers just over 47 square miles and has an automatic aid agreement 
with Marion County Fire Rescue to assist with emergency coverage for 
1,663 square miles and over 365,000 residents.
    Ocala Fire Rescue has been the beneficiary of several AFG awards in 
the past including one this previous year. The department was awarded a 
grant for hearing protection in our Fire Apparatus previously, 2 grants 
roughly 10 years apart for self-contained breathing apparatus known as 
SCBA's. We are awaiting the arrival of our newly awarded SCBA's 
currently. Fire Departments like Ocala depend on the Federal funds to 
make major purchases that either were not budgeted for or the current 
financial climate could not cover the expense. Ocala Fire Rescue like 
many other departments across our Nation has been struggling to recover 
from the financial downturn our Nation previously went through. The 
current COVID-19 Pandemic has put new strains on departments that have 
not fully recovered. Bills like the current SB 426; Firefighter Cancer 
bill have also put a financial strain on Fire departments across 
Florida. While joining 44 other States in our country to improve 
firefighter safety it has a cost to the cities, counties, and 
departments. Departments are trying to improve the Personal Protective 
Equipment (PPE) of their firefighters. The new gear that is recommended 
to protect firefighters is costly, some departments just do not have 
the resources to budget for these items. That is where the AFG program 
helps these departments not only cover the recommendations and meet the 
current National Fire Protection standards but also the mission of the 
departments, to protect those that protect us, the firefighters.
    Florida firefighters are asked to perform in all types of 
emergencies, we cover all types of economic development, from rural to 
urban terrain and everything in between. We respond to natural 
disasters, hurricanes, hazardous materials incidents, technical 
rescues, fires, and medical emergencies and any other situation that 
the public cannot handle. A perfect example of the need for AFG is the 
current COVID-19 pandemic we are working through, without the Federal 
aid that was offered last year by AFG many departments just could not 
meet the communities needs, services would have been cut short to the 
people that needed it the most.
    Departments across the Nation like my own Department are currently 
being asked to submit flat budgets or decrease their current budget 
proposals due to the cost the pandemic has put on departments and 
communities. Funding that was budgeted for other critical equipment was 
spent on COVID-19 response. With this unexpected pandemic and its 
costs, departments still need to respond to every other emergency that 
is out there. They still need to keep on schedule with PPE purchases 
and other essential equipment that fire departments need to operate and 
serve their citizens. I have read numerous applications from 
departments all across our Nation, large and small all with the same 
missions and goals. The AFG grants not only help the departments 
protect the lives and safety of citizens it also helps them meet their 
goals of firefighter safety. Without the AFG many departments would not 
be able to provide adequate PPE to its firefighters to do the basic 
fundamentals of the fire service, fight fire. I have read too many 
applications where departments do not have enough bunker gear to outfit 
their firefighters so that each firefighter has his own individual 
turnout gear. Fire departments that are driving 30-year-old emergency 
vehicles as front-line apparatus. Departments asking for exhaust-
scavenging systems for their apparatus, so firefighters and the public 
do not have to breathe cancer-causing fumes from emergency vehicles.
    The other side to the AFG is that departments that are able to 
maintain and secure awards can then use other funds to advance life 
safety projects that the Fire Service offers to its communities. 
Departments like mine can offer smoke detector programs, hands-only CPR 
to schools and businesses, water safety, and Community Paramedic 
Programs to name a few.
    Ocala Fire Rescue is also part of USAR task force 8 which combines 
3 local departments, Ocala, Gainesville, and Marion County. We have 28 
members from our department on the regional team. We have been able to 
train and receive the most advanced technical equipment through the AFG 
awards. We have responded to many emergencies throughout Florida and 
the southeast region of the USA. When a Department receives a grant 
from AFG not only does the award help their Department, but it also 
helps the neighboring departments, by adding more resources and/or more 
up-to-date resources.
    In closing, being a recipient of AFG grants and as a reviewer I can 
attest that the need to continue and when possible, increase the 
allotted budget for AFG is greatly needed. Without these funds many 
departments would be cutting services, laying off firefighters and 
asking firefighters to put their lives at greater risk by performing 
their job without adequate personal protective equipment or inadequate 
firefighting equipment. When a disaster strikes, local fire departments 
will be the first to arrive, they need the equipment to safely do their 
job, I am glad that the Federal Government recognizes the need to 
assist in funding these grants. Grants help local fire departments meet 
their basic needs and improve their capabilities to respond to all 
hazards. I thank you for the opportunity today to testify about my 
experience with the Assistance to Firefighters Grant program. I am 
happy to answer any questions you may have.

    Chairwoman Demings. Thank you so much, Chief Altman. I want 
to thank all of our witnesses, this very geographically diverse 
panel of witnesses.
    I will remind the subcommittee that we will each have 5 
minutes to question the panel. I will now recognize myself for 
questions.
    I would like to begin, Chief Rolon, with you.
    Cities like Orlando have unfortunately found themselves, 
regardless of which party within in the White House, on a 
terribly unpredictable roller coaster, not knowing year to year 
whether to expect DHS grant funds to be available to maintain 
core, counterterrorism, and preparedness programs.
    From your perspective, Chief, how has this lack of 
predictability impacted Orlando's ability to be forward-leaning 
in addressing emerging threats?
    Chief Rolon. Chairwoman Demings, I think, to put it in 
simple terms, we have been short-changed, in my opinion, in the 
Central Florida region considering that we received, prior to 
COVID, more than 76 million visitors to our region. It has been 
a challenge for us to solicit and secure the funding that we 
believe is best to not only support our local residents, but 
also the millions of people that come, not only from the United 
States but all over the world.
    We have learned to navigate through the system, but it has 
been very difficult at times for the people who do the heavy 
lifting in our area, that put everything together in order for 
us to try to compete for the funds. It has been somewhat of a 
struggle to show that we are deserving of more support. But we 
appreciate you and our Congressional delegation who have made a 
tremendous difference in fighting for us to secure additional 
funds that have resulted in an increase for funding that now, 
just this year, will allow us to have for the first time in our 
region, a high-reach rescue vehicle, one that you would have 
thought that here in Central Florida we would have had a long 
time ago.
    So, it has been somewhat of a struggle, but we have hope 
moving forward, through sessions like this and giving us the 
opportunity to communicate our concerns, we will be able to get 
better funding in the future.
    Chairwoman Demings. Thank you, Chief.
    Governor Ige, as a former police chief I know first-hand of 
how important the Department of Homeland Security Grant Program 
is to keeping our communities safe. That is why I asked all of 
you here today for my first hearing as Chair of this 
subcommittee.
    The introduction of fiscal year 2020 of cybersecurity, soft 
targets, intelligence and information sharing, and emerging 
threats are National priorities to be addressed by a specified 
portion of grant funding marked a significant change, but other 
consequential changes were proposed, including transforming 
portions of grant funding into competitive grants that were 
pending when the Biden administration came in.
    Governor, can you share your view on the impacts to States 
of those changes that were made in recent years and how can the 
committee be thinking about where these programs need to go 
from here?
    Governor Ige. Thank you very much, Chairwoman Demings.
    I think it is very important on behalf of all the Governors 
to advocate for maximum flexibility and reducing the earmarks 
because all of the States are different, and we definitely have 
different needs.
    We know that the Federal Government has to be more active 
in cybersecurity. We do know it is a Nation-wide network, and 
we are only as strong as the weakest link. Clarifying and 
providing additional funds to improve the cybersecurity posture 
in every State is so necessary to increase the cybersecurity 
posture of the country. Many important infrastructure assets 
are scattered in different States. For example, here in the 
State of Hawaii we are headquarters to all of the Pacific 
Commands for the Indo-Pacific Region. Any impact to our 
community definitely impacts the country's response to any kind 
of activity that would occur.
    So we certainly would encourage maximum flexibility.
    As you had said, being able to count on grant funding is so 
important to improving our posture all across the country.
    Chairwoman Demings. Governor, thank you so much. I know how 
early it is there in your home State as well, so again thank 
you for being with us.
    Director Maples, the State of New Jersey has multiple 
jurisdictions in the UASI program. To what degree has the 
changes in the past few years impacted the State's preparedness 
and what challenges today have they presented from the grants 
administration standpoint?
    Mr. Maples. Thank you for the question.
    Unfortunately, I don't have a term like aloha to use. I 
won't tell you what we normally say in New Jersey, but we do 
have great beaches.
    Regarding our preparedness, our robust UASI program covers 
the most densely populated State in the country, most diverse 
by many measures. So when we talk about preparedness in our 
administration of the grant program, the biggest challenge that 
we face is making sure that all those jurisdictions are on the 
same page going forward. That is one of the reasons my office 
exists.
    But then when you look at what happened to us just this 
past year with the rating. Our rating actually went down 
despite us having a signature terror attack in 2019, December 
2019 in Jersey City, and of course our enduring threat. Again, 
we labeled white supremacy and some of the race-based extremist 
issues that we are facing as a high threat. So we have that 
present in our State. So, making sure that those are connected.
    One of the other challenges, I would say, is because of 
where we are in the corridor--and the Governor mentioned about 
infrastructure--in New Jersey we literally sit at the heart--in 
the middle of Philadelphia and New York, and of course, 
extending the Northeast corridor and all the infrastructure 
that comes with that. So, making sure that our ranking is 
reflected in that, and then therefore allowing us to administer 
those grants in a way that provides across the entire State and 
across all of our sectors that are present here in New Jersey.
    Chairwoman Demings. Thank you so much, Mr. Maples.
    The Chair now recognizes the Ranking Member, the 
gentlewoman from Florida, Ms. Cammack.
    Ms. Cammack. Thank you, Chairwoman Demings. Again, thank 
you to all of our witnesses here today. I will jump right in.
    Chief Altman, your testimony mentions that you have been 
selected by IAFF to review the AFG grant proposal. Can you just 
give a brief overview to all of our Members here today of how 
that process works? As a follow-up, have you found smaller fire 
departments, which are often times rural, have difficulties 
applying for the AFG grant? If so, how can that process be 
improved?
    Chief Altman. Thank you, Congresswoman Cammack.
    Yes, about 3 years ago the International Association of 
Firefighters was looking to add more people onto the FEMA grant 
team for AFG grants. I was recommended at that time by the FPF 
president over to FEMA to be selected for a board. I had to 
fill out a resume and a bio to get in. One of the things I 
believe where people stay on the board until they retire or 
stop, you know, working on that board.
    So I started reviewing grants roughly 3 years ago for AFG 
and I have had so many grants. Usually what happens with the 
rural departments, they have a harder time because they don't 
either pay a grant writer to write their grants and they don't 
go back and forth with information. They will give it to maybe 
a lower-level person inside their department to try and write 
the grant. It is very important, and it is a huge need for 
their department, but because they don't hit all the check 
marks when we are going through, doing all the checking, they 
just won't make the cut to get the grant.
    I think that is the biggest problem. I feel when they are 
doing this, maybe if they were given either a not just a class 
from FEMA--FEMA office, some ways to learn how to do the 
grants, but maybe if there was like an interview process or 
something the grant--they put together or a video, training 
video, for these smaller departments to help write grants or 
the key things they are looking for. It changes every year. At 
least the key things put inside the grants would help. A lot of 
these rural departments, like you said, are just not getting 
the funding. But when we go through and read them, it is just 
because they didn't use criteria of what FEMA is asking them to 
put in the grant, not that they don't have the need. They 
obviously have the need.
    So that is pretty much the issue that I found reading the 
grants.
    As far as our department and some of the other departments, 
which are your larger departments, usually pay grant writers or 
have grant writers on staff to do it. The small rural 
departments just can't afford to do that, and that is where 
they fall short.
    Ms. Cammack. Excellent. Thank you.
    Last Congress--sticking with you, Chief Altman--the CARES 
Act included $100 million in supplemental funding for the AFG 
program. This was distributed in 2 rounds because there was a 
lack of qualifying applications in the initial application 
cycle.
    Did you participate in the peer review of the grant 
applications for the CARES Act for AFG?
    Chief Altman. I did. It was completed right after we did 
the AFG grants in the beginning of the year and we followed 
right up with the CARES Act grant. It was $100 million for PPE 
for all departments.
    I believe the issue is a lot of the smaller departments 
didn't get it in time. Somehow, they didn't get the information 
out to them so that they can apply for it. That is why we had 
to do--the first time we didn't have enough applicants apply, 
so we came back around the second time and we captured more 
departments. But I feel the same way, the smaller departments 
just didn't have--in such a short period of time from when it 
was announced to when they--from the opening to closing, they 
probably issued the information in time, but also, then again, 
the quality of the application they submitted was the issue.
    Ms. Cammack. Excellent. OK. Thank you.
    Turning now to Mr. Jared Maples up in New Jersey. The 
fiscal year 2021 budget request proposed a 25 minimum percent 
non-Federal cautionary requirement for the grant programs that 
do not carry a statutory cost share. Now, how would a 25 
percent cost share impact the current programs and initiatives 
funded through all of our preparedness grant programs, in your 
opinion?
    Mr. Maples. Thank you for the question.
    The No. 1 thing about cost share is the investment 
required, which is good in many cases because it requires the 
local municipalities and our State resources to come to the 
table with that investment. However, we want to make sure that 
when you are talking about cost matching that it allows the 
flexibility within it so that the State and local 
municipalities, our partners here, can spend that money 
effectively.
    So I think the biggest impact on that--we would prefer zero 
for sure--I will tell you that from our side--to give us the 
maximum flexibility and make sure we can dedicate all those 
dollars directly toward the programming--the Federal resources 
of course available. So, I mean we are in favor of having zero 
cost match. But when there is cost match, we recognize that it 
does force that specific investment. We want to make sure that 
we are working with our State and local partners across the 
board to reflect those investments and the importance of each 
of those investments, the ownership, if you will, in some of 
those programs.
    A great example in New Jersey is our Secure the Shore 
Initiative where we talk with our shore communities about 
vehicle ramming and some of the concerns we have on our 
boardwalks, for example, and making sure those local 
municipalities are coming to the plate with resources and 
dollars as well.
    So I think that is one example of what we do with some of 
our Federal dollars in cost match that is effective. But, 
again, we want to be careful that it allows the flexibility to 
the local municipality, that it doesn't take away from other 
resources.
    Ms. Cammack. Excellent. Thank you.
    Chairwoman Demings. The gentlewoman's time has expired.
    Staff has informed me that we are encountering technical 
issues. Accordingly, we will take a brief recess until we can 
resolve the issues. Once the issues are resolved Members will 
receive notice and time to resume the meeting. Members and 
witnesses will please remain on the platform with their cameras 
on and their microphones muted.
    The committee will stand in recess subject to the call of 
the Chair. It should not be long. Thank you for your patience.
    [Recess.]
    Chairwoman Demings. The Chair will now recognize Members 
for questions they may wish to ask our witnesses. In accordance 
with the guidelines laid out by the Chair and the Ranking 
Member, I will recognize Members in order of seniority, 
alternating between Majority and Minority. Members are also 
reminded to unmute themselves when recognized for questions.
    The Chair now recognizes the gentlewoman from Texas, Ms. 
Sheila Jackson Lee.
    Ms. Jackson Lee. Good morning. Thanks, Madam Chair, for 
this very important hearing. Thank you to all of the witnesses.
    Let me thank some of the witnesses for mentioning that the 
issue of security and emergency preparedness comes in many, 
many forms, and for acknowledging the terrible insurrection 
provoked by White supremacists and insurrectionists who were 
there to attack Members of Congress, the Speaker of the House, 
and the Vice President. Obviously, preparedness is important 
for local jurisdictions because we never know what an emergency 
really is.
    So I am interested in that kind of flexibility in terms of 
not discerning what kind of emergency a jurisdiction will be 
encountering.
    So let me first of all start with Governor of Hawaii. Thank 
you for your presence here, and as well the director of 
homeland security for New Jersey.
    Give me just a short assessment at how important grants and 
response from the Federal Government are in a manner that 
allows you to respond to what is at that time an emergency. 
Emergencies don't send notices and they don't give people a 
knock on the door, they just come.
    Governor.
    Governor Ige. Yes, certainly. Thank you so much for this 
opportunity.
    As you said, often times we don't know what the emergency 
will be and what the full scope of the emergency will be. For 
many of the States, and Governors taking action to respond to 
emergencies, we all make a commitment of local resources, but 
FEMA and Federal support was very, very important, especially 
for those catastrophic events that exceed the capacity in any 
given State. I do think it is important, some emergencies do 
require access to Federal resources, whether it be Department 
of Defense or other claims of assets that we don't have access 
to at the State level.
    So it is very important, the emergency response and the way 
it is structured, from county and local jurisdictions to State 
coordination to Federal coordination is very important. We 
continue to work to improve coordination between all levels of 
government. Most emergencies require an all forms of Government 
response in order to best serve our communities.
    Ms. Jackson Lee. Time is of the essence.
    Director Maples, that very same question on timeliness and 
expeditiously getting resources to you when an emergency comes.
    Mr. Maples. Thank you, Congresswoman, and thank you for the 
question.
    Certainly, no-warning events are the hallmark of what we 
prepare for in Homeland Security. To that end the dollars that 
we get from our Federal grant program go a long way for both 
strategic initiatives and tactical initiatives and how we 
operate.
    So when we are looking at the Jersey City attack or 
Hurricane Sandy, or really down the line of a lot of these 
events that have happened in New Jersey over time, we dedicate 
the dollars for strategic, implementing programs. Things like 
training exercises, strategic assessments, so the threat 
assessments that I talked about and the technology behind that, 
cybersecurity events. We do a lot of strategic investment. Then 
also the tactical investment. Investing in the tactical gear, 
equipment, and training allows our first responders to get in 
place.
    Then the Governor talked about that Federal interaction. 
Pretty much any incident that happens in New Jersey is going to 
have some sort of a Federal nexus almost immediately. So 
building the relationships on the front end become a huge part 
of how we get through those and create resiliency.
    Ultimately, our goal is to stop those incidents from 
happening before-hand, whether they are man-made, or try to 
mitigate the nature of natural ones, but then also build a 
resilient community on the back end so we can recover in a 
better footing.
    Ms. Jackson Lee. Thank you.
    Mr. Rolon and Mr. Altman, in terms of the local impact. 
First of all, COVID-19 has been devastating to law enforcement, 
both police and firefighters. Thank you for your service.
    In the course of just answering my question about the 
importance of these grants, the DHS Preparedness Grant Program, 
being detailed enough to be able to meet the needs of local 
entities, such as police and fire, if you respond to that, but 
more importantly, what impact it has when you need PPE for 
pandemics and can't access them because of the lack of dollars 
or the lack of access to Federal grants.
    Chief and Battalion Chief. Chief, would you please go 
first?
    Chairwoman Demings. The gentlewoman's time has expired and 
the witnesses may very quickly and briefly answer the question.
    Ms. Jackson Lee. I am so sorry. I can't--I didn't see the 
clock. It is not showing up on these, so I apologize. Thank you 
so very much. If they would----
    Chairwoman Demings. Thank you. The witnesses may give brief 
answers please.
    Chief Altman.
    Chief Altman. Would you like me to go first?
    Chairwoman Demings. Yes, please, go first.
    Chief Altman. I believe the PPE for our firefighters is 
very important. We did run down to close level zero for a short 
period of time, but with our neighboring community fire 
departments and our hospital, they were able to keep in 
support. But without local grant funds, we wouldn't be able to 
keep up with the need for the amount of calls that we have had 
for COVID. We just would not be able to handle it.
    Chairwoman Demings. Chief of police. Thank you. Chief 
Rolon. We can't hear you. You are on mute. Now we can hear you.
    Chief Rolon. So early on there were a lot of unknowns and 
so there was a lot of concerns that the equipment that everyone 
was recommending was not readily available. Thankfully, as time 
progressed those needs became less, but the availability to 
have access to them also was facilitated.
    So, to be honest with you, the early stages of the pandemic 
were nightmares, but beyond the first 3-4 months, I think 
everyone realized that, hey, we saw light at the end of the 
tunnel in the funding process and the support mechanism in 
place was exactly what we needed in order to get beyond the 
hump that we were facing.
    Chairwoman Demings. Thank you so much. Thank you, Madam 
Sheila Jackson Lee.
    The Chair now recognizes the gentleman from the State of 
Louisiana, Mr. Higgins, for 5 minutes.
    Mr. Higgins. Thank you, Chairwoman Demings and Ranking 
Member Cammack, for holding today's hearing.
    I represent much of Louisiana's gulf coast. I certainly 
understand the importance of preparedness for disaster 
mitigation. It is an on-going challenge. I also spent many 
years in law enforcement, and I know that a well-funded police 
force is generally a well-prepared police force. It is 
essential to protecting our communities and our first 
responders.
    So the Department of Homeland Security Grants are 
undoubtedly a necessity in this process. I appreciate my friend 
and colleague, Chairwoman, for holding this hearing.
    Mr. Altman, you mentioned in your written testimony, which 
I have read, that the Assistance to Firefighters Grant Program 
has helped your department's, Ocala Fire Rescue, response to 
natural disasters. We are particularly concerned about that. 
Hurricanes, hazardous materials incidents, technical rescues, 
fires, medical emergencies, et cetera.
    Would you further explain to America and to the committee 
your experience with DHS grants assisting natural disaster 
response? Give us an overview there, sir, from your 
perspective.
    Chief Altman. Thank you, Mr. Higgins.
    I started on our USAR team, which is an operations team. 
Originally I started on special operations in the 1990's and in 
mid-2000's USAR came about. We responded to everything from 
Katrina on forward, just about every natural disaster that has 
happened in the southeast region. That is my department. We 
have--we are made up of, like I said, Gainesville and Marion 
County. What happens is we get the best training for our 4 
departments that can put together, best the State has--that our 
country actually has to offer. We have the great Florida State 
Fire College right here in our backyard and we teach the 
military from all over the world and everything right here in 
Ocala. So we have the most up-to-date. So the grants, what they 
have done is given us the best equipment, they have given us an 
amount of money to train that we would not ever have been able 
to afford the training. Any one of these departments with the 
resources the departments have, would not have been able to 
afford to do the training that we got.
    So when we do respond to these natural disasters, we are so 
much better equipped and we have so much more training that we 
could have had any point without having the AFG grants. They 
have made it where we stepped up--I am sorry, go ahead.
    Mr. Higgins. Would you concur and just clarify for everyone 
that is tuned in here that your grant applications and 
approvals are allowing you to train, but you are not just 
training your department. Speak to the magnification of your 
training impact due to the access to grant monies for training.
    Chief Altman. Sure.
    Mr. Higgins. How many departments come train with you?
    Chief Altman. Well, at a minimum we have 4. We will have 4 
big departments come train. Sometimes we have departments all 
the way from Key West, out through Jacksonville, all the way 
through the panhandle of Florida that will come down and train 
with us.
    So using all of the equipment that we get for our Task 
Force team, it is not just used here locally to even be trained 
on, it is training throughout the whole State of Florida. It 
just depends on the different times. We offer different classes 
at different times and different training events. At least 
quarterly we all meet and get together in different areas from 
up in Jacksonville to Orlando. We have guys in Orlando actually 
that are there today because of grant funding doing training.
    So it is all the State of----
    Mr. Higgins. So it certainly magnifies. Would you agree, 
just in closing--and then I have a question for Mr. Rolon--
would you agree that the DHS grant system allows you to save 
lives and preserve property, protect property and save lives?
    Chief Altman. Absolutely, 100 percent.
    Mr. Higgins. There is a direct correlation there, is there 
not?
    Chief Altman. Yes, there is. Yes, there is.
    Mr. Higgins. Thank you, sir. God bless you.
    Mr. Rolon, in my remaining time, would you please advise to 
the State and local law enforcement that will ultimately watch 
this, when it comes to applying for and implementing the best 
use of DHS Preparedness Grant Programs, what words of advice 
would you have in my remaining time--which, Madam Chair, I 
cannot see the clock, but perhaps you could advise the witness.
    Chairwoman Demings. The gentleman's time has expired, but 
the witness may answer the question.
    Mr. Higgins. Oh, I apologize, Madam Chair. My time has 
expired, but perhaps he could answer.
    Thank you.
    Chairwoman Demings. Chief, you are on mute.
    Chief Rolon. Thank you very much.
    I think it is critical for every community, regardless of--
it is not a one fit all. Every community has to be measured by 
what the risks are for that community. I think that is where in 
part sometimes we come up with these processes that say you 
must meet these criteria, but it is for the general market that 
is trying to capitalize on these grant opportunities. Maybe we 
need to re-tweak how it is that a city like ours, as compared 
to Newark, New Jersey, you know, and see if whatever criteria 
is being set for all to follow is right or not. I think, again, 
in our case, in our area we have suffered as a result of it.
    Chairwoman Demings. Thank you so much, Chief.
    The Chair now recognizes the gentleman from the State of 
New Jersey, Mr. Payne, for 5 minutes.
    Mr. Payne. Thank you, Madam Chair. Let me just thank you 
and the Ranking Member for this very timely committee hearing.
    I will start with Mr. Maples, who I know very well, and has 
been very helpful to this committee in the past. Mr. Maples, 
for the past few fiscal years the risk ranking and funding 
levels for the Newark, Jersey City, and New Brunswick, New 
Jersey, UASI jurisdictions, have fluctuated, bringing in an 
element of unpredictability to the jurisdictions' budget for 
fiscal year to fiscal year, an issue that I spent a lot of time 
engaging with FEMA when I was Chairman of this subcommittee.
    The question is how has this unpredictability impacted 
emergency preparedness in New Jersey?
    Mr. Maples. Thank you for the question, Congressman. Again, 
thank you for your partnership and friendship over the years.
    I will say this, that unpredictability in this business, 
particularly when we look at strategic investments and 
strategic programming, is very challenging. That is, it is a 
lot more efficient, and it is a lot more strategic, quite 
frankly, to be able to develop the goal that we want to develop 
by having a little bit more consistency in those rankings. When 
those rankings drop, for example, to your point, when some of 
those dollars go away, investments that we thought we were 
going to be able to make and some of our municipal partners 
were going to be able to make, we have to push them back, or 
not even do them in some cases.
    So those are direct impacts on things like strategic 
training initiatives, exercises, some of the tactical 
preparations of--some of the specific tactical equipment, for 
example. If we can't invest in those and only have a specific 
funding source, that unpredictability causes a lot of problems 
for us to respond to those no warning events that we have 
talked about.
    Mr. Payne. Thank you.
    While in office, former President Trump consistently 
proposed significant cuts to DHS Preparedness Grants. Now that 
the Biden administration is at the helm of the Department, 
please explain the importance of robust funding levels for 
these grant programs, including how emergency preparedness will 
be impacted if cuts that the Trump administration proposed were 
enacted.
    So are you there--are there any specific sections of DHS 
Preparedness Grant funding that you could use immediate 
additional support?
    Mr. Maples. So thank you again for that.
    I think one of the biggest standout areas that we can talk 
about is the cybersecurity realm. Right now there is a 7.5 
percent dedication in the current grant streams to 
cybersecurity. That is an evolving threat, that is an 
incredibly emerging threat of a whole profile, high impact to 
our National security. Certainly in New Jersey everything from 
ransomware incidents throughout our municipalities up to our 
strategic investment in critical infrastructure protection, 
that is one area where I think we can see if not a dedicated 
grant funding stream from our DHS counterparts in the Federal 
Government, certainly enough taken what we spend or is 
allocated throughout the investment matrix.
    Then also when we talk about this preparedness, those 
efforts, I think the more preparation that we can do, the ``P'' 
in preparedness in OHSP, and it having--those exercises having 
those communication networks established, which we try to do 
every single day. If those dollars are increased, I think we 
will see a lot of impact from an investment perspective.
    Mr. Payne. Thank you, sir. Once again, it is good to see 
you and thank you for always supporting us here.
    With that, Madam Chair, I will yield back.
    Chairwoman Demings. The gentleman yields back.
    The Chair now recognizes the gentlewoman from Iowa, Ms. 
Miller-Meeks, for 5 minutes.
    Ms. Miller-Meeks. Thank you so much, Chair Deming and 
Ranking Member Cammack, and to all the witnesses for this very 
important hearing. It is fascinating to me, being a former 
director of public health, especially after the emergency 
preparedness and homeland security took place.
    I also want to thank Representative Payne for giving me an 
opening for my question.
    So this is for Mr. Director Maples. Within the State of 
Iowa, as a State senator, I had to advance legislation because 
of some of our localities and our cities because of 
cybersecurity. They were ransomed and being paid in bitcoin. We 
know that China, the Chinese Communist Party, now has its own 
cryptocurrency and is trying to advance that. I think that is 
extraordinarily troublesome and problematic for the United 
States.
    You had mentioned, and in your written testimony, you said 
that you were welcoming conversations with DHS about the 
dedicated funding for prioritization for cybersecurity. Both 
State, Homeland Security Grant Program, and UASI recipients are 
required to spend 7.5 percent of their award on cybersecurity. 
As you had just started earlier, would you be able to elaborate 
your thoughts on additional dedicated funding for 
cybersecurity?
    Mr. Maples. Sure. Absolutely. One quick adjoinder to the 
previous question that I will add to this so that it impacts 
your question as well, which is the other side really impact 
would be the non-profit and security grant program. I think 
there can be programs implemented very quickly that we will see 
a lot of impact from. So I do want to make sure I mention that.
    From a cybersecurity perspective, I thank you for the 
question. It is a great one. No. 1 is there has been this 
tremendous convergence of threat that we see. So previously a 
cybersecurity incident may be isolated as a specific on-line or 
cyber environment incident, and now you see this nexus between 
extremism, whether it be recruiting, whether it be on-line 
pieces; ransomware is a criminal act. You see an incredible 
nexus from our foreign organizations like our foreign state--
organizations like you talked about with China, that there is a 
real benefit quite frankly to them to impact us, whether it be 
through causing chaos on-line, causing those attacks, 
exfiltrating information, or IP. There is a huge nexus to that 
convergence of threat that we deal with every single day in New 
Jersey.
    So when we talk about an uptick, whether it be again in an 
investment percentage or in a specific set-aside grant stream 
for cybersecurity, a lot of it will deal with that convergence. 
So they have to connect. It can't just be independent of the 
extremism piece and a lot of other preparation and preparedness 
grants that are out there. It has to be complementary. But then 
on a cybersecurity side, it is things like getting the small 
local business, because they become targets, they become 
targets of something as big as a Chinese state actor all the 
way down to a criminal actor on a small level. You see huge 
impacts in New Jersey that I am sure you do in Iowa as well, 
from a dollar figure, from economic impact, from a trust in the 
system that we can protect PII and all the information and data 
that is available, we can protect our networks.
    So the dedicated streaming, at least in New Jersey--of 
course that is what I am speaking on behalf of--we can dedicate 
that funding to--for technology, for resources, for personnel, 
for access to communication platforms, to really increase our 
capability with the Federal Government to team up together to 
beat that convergence.
    So I think that is how I would answer that one.
    Ms. Miller-Meeks. I only have a little bit more time left, 
but I am so glad that you brought up the issues that you 
brought up, because we also have disinformation from--you know, 
from other governments that are not friendly to the United 
States. Hopefully you saw the recent Wall Street Journal 
article talking about both Russia and the Chinese Communist 
Party with their disinformation campaigns on social media to 
exaggerate the side effects from our vaccines for COVID-19. 
This is extraordinarily serious. We know we have to get through 
this pandemic. It is part of--I am sure it has impacted all of 
you and your jobs in emergency preparedness. You know, your 
thoughts on that type of disinformation campaign by foreign 
leaders in the digital or internet realm.
    Mr. Maples. Thank you for that question. That is a--I hate 
to say it has become part of our wheelhouse in New Jersey.
    The Governor and I spoke very early in the pandemic and we 
realized there was a problem. One of those was a state-
sponsored--and I don't want to get into the specific details--
but a state-sponsored actor started a text message strain that 
started--really started some of the panic around that first 
March time frame. It said essentially that they had a friend 
that is high-ranking at FEMA or the military and they are going 
to kick the doors in and lock the entire country down. That is 
what led us to start saying well, this is a core Homeland 
Security problem. I was getting calls from private-sector 
leaders, Chairmen and Chairwomen, company CEOs, you name it, 
public sector, and people were really concerned about that. 
That was 100 percent a foreign influence misinformation, 
disinformation campaign.
    That led us to the vaccinations, like you said, and really 
across the board. Some of the unrest that we have seen over the 
past year-and-a-half. So on our website at NJOHSP.gov, we have 
got a dedicated web page toward combatting the disinformation 
and misinformation. Again, we have seen this now in New Jersey 
as a core Homeland Security discipline and problem set that we 
have to deal with, and turning that narrative by being 
trustworthy, transparent, direct, with the information. We are 
an apolitical organization, we fight to maintain that 
apolitical nature, and we do that through, again, those 
mechanisms.
    Ms. Miller-Meeks. Thank you so much for your answer and 
thank you, Chair Demings, for indulging his response.
    Chairwoman Demings. The gentlewoman's time has expired. 
Thank you.
    As you know, cybersecurity is one of those areas where we 
think about what keeps us up at night, I would say 
cybersecurity does. It is certainly the new weapon of choice.
    Governor, in the fiscal year 2021 the Department added 
transnational crime and cyber threats. To the threat portion of 
the grant risk formula and to the vulnerability piece of the 
formula it added isolation to try and better account for more 
remote locations that nevertheless are at risk, particularly at 
this time of heightened domestic terrorism.
    Governor, in your view, do you think these changes help to 
more accurately reflect the current threat landscape? If not, 
why not?
    Governor Ige. Thank you so much for that question, 
Chairwoman.
    It definitely does improve the threat landscape. You know, 
as Representative Meeks had asked, the cyber threat is a 
Nation-wide threat because we are all connected. You know, we 
are definitely seeking and encouraging the Congress to dedicate 
a stream of funding to cybersecurity. We are seeing more 
sophisticated threat actors, as Mr. Maples had commented. We 
have nation-state threat actors using misinformation campaigns 
to confuse the residents across all 50 States and territories. 
It becomes more important that these international actors--and 
I think the real threat to the American way of life is no 
business is really prepared to deal with these nation-state 
actors. They are becoming more sophisticated. The cyber 
terrorists from out of country have access to the networks 
within our country. I think most importantly the weakest link 
in the network is where those cyber actors, those bad actors 
will enter the network and wreak havoc. So even the smallest 
county, the smallest business how now has been encouraged to 
embrace the technology and being part of the network, can 
become the weakest link and the area of attack.
    So I do think it is very, very important. This change is 
important to recognize the nature of the cyber threat all 
across the country.
    Chairwoman Demings. Thank you so much, Governor Ige.
    Chief Altman, I know you talked earlier about grant 
applications and how some of the smaller agencies just don't 
have the resources and how you are working together.
    Could you talk just a little bit about how you are working 
together to address a cyber threat to the agencies in your 
region?
    Chief Altman. Thank you, Ms. Demings.
    As far as us working together, we have--obviously our IT 
departments are working, and we have to do training. We 
actually--we have a weekly training. We have a multi training 
where we all meet and get together and address whatever threats 
or intelligence for cyber training.
    Our department has budgeted--put a certain budget together 
and our city put a certain budget together just to maintain and 
fight against cyber threats. Like you said, ransomware has 
become something that is very, very real. I would just like to 
get this up so I can do this meeting on this; I had to give to 
our police department and make sure that the computer didn't 
have anything that was going to affect us for cyberware.
    So we have actually been held accountable on our city side 
for somebody for some ransomware. Our department works with our 
neighboring cities and counties and we have a joint commission 
that works for cybersecurity.
    Chairwoman Demings. Chief Rolon, I know you spoke earlier 
about the city of Orlando's commitment to this area. Anything 
else you would like to add in the area of cybersecurity or 
cyber threats?
    Chief Rolon. We have to ensure--we have to make sure that 
whatever project has been allocated for future funding that is 
needed to support this important portion of the grants system 
is there in order for us to be able to best prepare for 
potential attacks. It is an ever-evolving process, it is an 
ever-changing process. So the fixes of today may not be the 
fixes of tomorrow, so we have to have the right people to 
provide us the support and the right funding to have the 
equipment to counter these threats.
    Chairwoman Demings. Thank you so much.
    The Chair now recognizes the gentlewoman from New Jersey, 
Ms. Bonnie Watson Coleman.
    Ms. Watson Coleman. Thank you, Chairwoman and Ranking 
Member, for this hearing and thank you for--I didn't know if 
you knew I was on. I was getting a little nervous.
    First of all, let me thank all the witnesses, not just for 
sharing your information with us and your concerns, but for the 
service that you render to the States and counties and 
municipalities. We are grateful for the work that you do.
    Mr. Maples, I am very--I am Jersey proud. I am very proud 
of the work that you are doing. I am so glad that you kind-of 
amended your interest in what were greater needs when you 
talked about community organizations, especially those I am 
very concerned about, the UASI grant.
    Madam, I am--I don't know if I am causing the feedback, 
but.
    So I know that there was a proposal----
    Chairwoman Demings. If the gentlewoman would suspend.
    Would all Members just make sure that you are muted. Please 
make sure you are muted.
    The gentlewoman may proceed.
    Ms. Watson Coleman. Thank you. Thank you. Oh, it is much 
better.
    I know that the Trump administration had proposed 
increasing the eligibility of UASI grant recipients and at the 
same time reducing the amount of money that was going to be 
available. Had that happened, what would that have meant 
materially in the State of New Jersey? That is one question.
    No. 2 is I know we have got cybersecurity issues, I know we 
have nation-state issues, I know we have foreign attack issues, 
but it is clear that we have White supremacy attack issues. 
With that in mind, are we looking to bring in faith-based 
communities that didn't necessarily--weren't necessarily 
vulnerable to foreign terrorists, but would be very much 
targeted from White supremacists? That would be the Black 
churches in particular.
    Mr. Maples. Thank you, Congresswoman, and thank you for 
your kind words. Both great questions.
    So, No. 1, the loss of dollars and an increase in 
applicants would definitely have a huge impact in New Jersey. 
We, as you know, are, again, one of the most diverse States in 
the country and that also extends to our religious community. 
Also through our community action and non-profits who are 
eligible for those grant dollars. So we are advocating more 
eligibility, but a lot more dollars to be commensurate with 
that side, because the loss in the--the impact would be we just 
wouldn't be able to get as much--as many dollars directly to a 
synagogue or a church or a temple or any of those other 
organizations that are out there because--well, I mean clearly 
we just need the funding aspect to that.
    So we really rely on these dollars in our State to be 
resilient, to prepare our communities across all of the 
counties. One of the challenges has been the eligibility in all 
21 counties. We don't necessarily have the Federal side. That 
is an area we would love to see that expansion and we are 
seeing that now.
    But the dollars have to go up not down here--period. 
Because those are used for cameras, locks, alarms, training, 
vital.
    Ms. Watson Coleman. Yes, go ahead.
    Mr. Maples. Then as far as our faith-based communities, I 
love that you asked that question. It is something we focused 
on from Day 1. Some of our community leaders, across all 
communities, but in particular the communities that you just 
mentioned, in our African American Black communities 
throughout, we had great leads and great impact in developing 
relationships that weren't there before through our Interfaith 
Advisory Council.
    So we have a 3,500-member council that has every religion 
in the State. All religions are documented in there in part of 
that group and we leveraged that to get those grants out there 
to make sure we are engaging directly with the community. But 
it is not just us communicating out, it is about the community 
let us know what issues are so we can head those off before 
they become real problems. So the community question is 
something we focus on.
    Ms. Watson Coleman. Yes. Thank you.
    I am very concerned about domestic violence in this country 
now, as evidenced by July--January 6 and beyond. So it is good 
to know that we are expanding our desire to contact and protect 
those additional types of churches and organizations.
    Madam Chair, I see the clock, but I don't know if I have a 
little bit more time because of what happened.
    Chairwoman Demings. Thirty seconds. Thirty seconds.
    Ms. Watson Coleman. Forty?
    Chairwoman Demings. Thirty.
    Ms. Watson Coleman. OK. All right.
    Governor, I just wanted to know whether or not you agreed 
with the testimony of Governor Pritzker of Illinois last year 
when he said that the initial response to the COVID disaster 
was disastrous and air bridge was another type of disaster. 
What was your experience in Hawaii and what is your experience 
now?
    I thank you for the additional indulgence, Madam Chair.
    Thank you, Governor. If you would be able to answer that.
    Governor Ige. Sure. Yes, I would agree with Governor 
Pritzker's assessment. I think the real challenge for all of 
the States was because there wasn't strong Federal leadership, 
that all of the States were left to deal with the different 
aspects of the pandemic in a different way.
    I will give you a personal example from the State of 
Hawaii. You know, access to personal protective equipment, and 
the chiefs of police and fire talked about, you know, from a 
Governor's perspective, having our front-line personnel not 
have access to PPE was just a poor choice. We did not want to 
see that happen. What was happening is that small States like 
Hawaii had to increase our orders in order for us to get on the 
map. We kept getting outbid by California and Washington State 
and New Jersey for critical PPE. We couldn't access and 
purchase the equipment that we needed to protect our public 
servants.
    That is just one example that the initial response was 
poor.
    Ms. Watson Coleman. Thank you. I think we are definitely 
moving in the right direction here now to protect everyone.
    Madam Chair, I yield back and I thank you for your 
indulgence.
    Chairwoman Demings. Thank you so much. The gentlewoman 
yields back.
    I just want to make sure that we have recognized all 
Members. Is there is any Member who has not been recognized?
    I would just like to take a moment to ask our witnesses, 
you know, COVID-19 was something we had never seen before, 
which required us all to do some things we had never done 
before. I would just like to hear from each of you how it 
affected your work, your ability to work on grants and apply 
for grants. Also how has it been working with the Federal 
Government and how can FEMA better support you?
    Governor Ige, we will start with you.
    Governor Ige. Yes, certainly. Thank you so much.
    You know, I do think that the biggest challenge in 
responding to grant opportunities is that, you know, for the 
past 14 months everything has been all about COVID. So, you 
know, all of the other kinds of grants and having to apply for 
grants in this kind of environment where we have an on-going 
National emergency, I think is a challenge for all States. So, 
you know, that has made it difficult for the other parts of 
support that FEMA and the Department of Homeland Security 
provides.
    But I would like to say that the support that most States 
have gotten from FEMA has been very responsive. You know, the 
uncertainty of funding and support for our National Guard, for 
example. Not being able to count on how much Federal support we 
would get. We are thankful that the Biden administration came 
in and guaranteed 100 percent cost match for all of the 
emergency activities from FEMA was a welcome commitment. You 
know, it is hard to plan not knowing whether we will get no 
FEMA support, 100 percent FEMA support, or 25/75. That has made 
it difficult for all States.
    Other than that FEMA has been proactive and responsive to 
our needs. Most recently we see a sea change in transparency 
and responsiveness from the Biden administration.
    Chairwoman Demings. Thank you so much.
    Mr. Maples.
    Mr. Maples. Thank you. Thank you, Chairwoman.
    The impact was definitely great on all of us here in New 
Jersey, from dealing with it sort-of on the forefront for the 
country as far as the amount of cases and deaths and issues 
that we were dealing with, but then also preparing for those 
multiple tiers.
    The good news for us we have really focused on flexibility 
and our strategic implementation to deal with multiple threats 
or multiple incidents and issues at one time. We do that in 
partnership with our OEM colleagues, the Office of Emergency 
Management of the State Police. In doing so, have some of the 
relationships in place with FEMA and our regional 
representatives and everybody in place.
    So we were in a position to deal with it, however, I think 
that was a tsunami for all of us in that whether you talk about 
PPE shortages, whether you talk about some of the existing 
other programs that are out there where all the sudden our 
people are remote, been dealing with some of those challenges. 
So it did impact us. I am proud and happy to say that we were 
able to get through that. I think we have been almost at 100 
percent of capability throughout this, with some hiccups, but 
we punched through those hiccups and, as the great philosopher 
Mike Tyson says, everybody has a plan until you get punched in 
the face. We got punched, but we are hopefully punching back 
here in New Jersey.
    So thank you.
    Chairwoman Demings. Thank you so much.
    Chief Rolon.
    Chief Rolon. I think----
    Chairwoman Demings. Chief, you are muted. OK, OK, we can 
hear you.
    Chief Rolon. Thank you.
    I have to say, just one time we have to give credit to the 
FEMA representatives who work closest to us at the local level. 
They were there, they were supporting us every step of the way. 
What happened above that, at the Federal level, could be deemed 
a different story. But I am telling you, the way the 
stakeholders work with everyone to support the needs of the 
public safety profession--and I couldn't be more proud of the 
men and women of police and fire who know that they were 
risking their lives or their loved ones, went out there and did 
their jobs. They did not have the luxury to not respond to a 
call for services, they did not have the luxury to say, you 
know what, let me think about it before I take that call. They 
did so knowing that they were putting their lives at risk. So 
on a personal note I would like to take this opportunity to 
recognize the members of public safety and the heroics that 
they performed during the COVID initial phase where the unknown 
was dominating everything.
    Chairwoman Demings. Thank you so much, Chief.
    Chief Altman.
    Chief Altman. To copy the Chief's comments, we were lucky 
in a position ourselves with our local hospitals and our local 
health departments. We were able to get a lot of PPE. Like you 
were saying, FEMA on the local level has been great to us. We 
were able to operate 100 percent the whole time, never missed a 
beat. We obviously made adjustments in how we respond to calls 
and how we enter into homes and nursing facilities. Our 
community has a lot of nursing homes and a lot of retirement 
communities. So that was a huge challenge for us.
    But on the local level we were put in a position running a 
large amount of calls. Our members and our police and our fire 
said we are up to the task and we never hit a level. We got 
close, but, as Chief said, we had some hiccups along the way, 
but we never missed a beat and were able to perform up to 100 
percent at all times.
    So I think we were really focused and everything was 
handled on the local level very well.
    Thank you.
    Chairwoman Demings. With that, I want to thank the 
witnesses for your valuable testimony and for what you do every 
day to make sure that we are ready and to properly respond to 
anything that threatens us.
    I also want to thank the Ranking Member and the Members of 
this subcommittee for your questions.
    The Members of the subcommittee may have additional 
questions for the witnesses and we ask that you respond 
expeditiously in writing to those questions.
    Without objection, the committee record shall be kept open 
for 10 days.
    Hearing no further business, the subcommittee stands 
adjourned. Thank you all so much.
    [Whereupon, at 1:49 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
